<html>
<title> - MARKUP OF H.R. 3501, H.Res. 326, H.Res. 246, H.R. 1850, H.R. 1837, H.Res. 138, H.Con.Res 32, H.Res. 442, H.R. 2097, AND H.Res. 127</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


  MARKUP OF H.R. 3501, H.Res. 326, H.Res. 246, H.R. 1850, H.R. 1837, 
    H.Res. 138, H.Con.Res 32, H.Res. 442, H.R. 2097, AND H.Res. 127

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             July 17, 2019

                               __________

                           Serial No. 116-56

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov                                     
                                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-050PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
                       
                       
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman
                   
                   
 BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                              
                             
                                     
                Jason Steinbaum, Democrat Staff Director
               Brendan Shields, Republican Staff Director                  
                   
                           
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           TEXT OF H.R. 3501

H.R. 3501........................................................     3

                   MATERIALS SUBMITTED FOR THE RECORD

Article submitted for the record from Representative Chabot......    22

      ADDITIONAL TEXT AND AMENDMENTS FOR H.R. 3501 AND H.RES. 326

Amendment to H.R. 3501 offered by Mr. Burchett...................    26
Amendment to H.R. 3501 offered by Mr. Perry......................    33
Amendment in the Nature of a Substitute to H.Res. 326 offered by 
  Ms. Bass.......................................................    40

               BILLS, RESOLUTIONS, AND AMENDMENTS EN BLOC

Amendment in the Nature of a Substitute to H.Res. 246 offered by 
  Mr. Engel......................................................    52
Amendment to H.Res. 246 offered by Mr. Zeldin....................    56
H.R. 1850........................................................    58
Amendment in the Nature of a Substitute to H.R. 1837 offered by 
  Mr. Deutch.....................................................    84
H.Res. 138.......................................................   123
Amendment to H.Res. 138 offered by Mr. Wilson....................   126
H.Con. Res. 32...................................................   128
H.Res. 442.......................................................   133
Amendment in the Nature of a Substitute to H.Res. 442 offered by 
  Mr. Malinowski.................................................   140
H.R. 2097........................................................
H.Res. 127.......................................................   151

                                
                                APPENDIX

Hearing Notice...................................................   173
Hearing Minutes..................................................   175
Hearing Attendance...............................................   176
Markup Summary...................................................   177

 
  MARKUP OF H.R. 3501, H.Res. 326, H.Res. 246, H.R. 1850, H.R. 1837, 
    H.Res. 138, H.Con.Res 32, H.Res. 442, H.R. 2097, AND H.Res. 127

                        Wednesday, July 17, 2019

                       House of Representatives,

                     Committee on Foreign Affairs,

                                     Washington, DC

    The committee met, pursuant to notice, at 10:05 a.m., in 
room 2172, Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Chairman Engel [presiding]. The committee will come to 
order.
    Pursuant to notice, we meet today to mark up 10 measures.
    Without objection, the chair is authorized to declare a 
recess of the committee at any point.
    Pursuant to Committee Rule 4, the chair announces that the 
chair may postpone further proceedings on approving any measure 
or matter or adopting an amendment.
    Without objection, all members may have 5 days to submit 
statements or extraneous materials on today's business.
    The text of the 10 noticed measures was circulated in 
advance to offices, and members were also notified yesterday 
that we intend to first consider H.R. 3501, the Safeguard our 
Elections and Combat Unlawful Interference in our Democracy 
Act.
    And this will be followed by the amendment in the nature of 
a substitute to H.Res. 326, expressing the sense of the House 
regarding United States' efforts to resolve the Israeli-
Palestinian conflict through a negotiated two-State solution.
    And finally, we will move on to consider the eight 
remaining measures en bloc, which consist of:
    The amendment in the nature of a substitute to H.Res. 246, 
opposing efforts to delegitimize the State of Israel and the 
Global Boycott, Divestment, and Sanctions Movement targeting 
Israeli, with a Zeldin amendment;
    H.R. 1850, the Palestinian International Terrorism Support 
Prevention Act of 2019;
    The amendment in the nature of a substitute to H.R. 1837, 
the United States-Israel Cooperation Enhancement and Regional 
Security Act;
    H.Res. 138, expressing support for addressing the Arab-
Israeli conflict in a concurrent track with the Israeli-
Palestinian peace process and commending Arab and Muslim-
majority States that have improved bilateral relations with 
Israel, with a Wilson amendment;
    H.Con.Res 32, expressing the sense of Congress regarding 
the execution-style murders of United States citizens Ylli, 
Agron, and Mehmet Bytyqi in the Republic of Serbia in July 
1999;
    H.Res. 442, observing 10 years since the war in Sri Lanka 
ended on May 18, 2009, commemorating the lives lost and 
expressing support for transitional justice, reconciliation, 
reconstruction, reparation, and reform in Sri Lanka which is 
necessary to ensure a lasting peace, with a Malinowski 
amendment in the nature of a substitute;
    H.R. 2097, Legacies of War Recognition and Unexploded 
Ordnance Removal Act,
    And H.Res. 127, expressing the sense of the House of 
Representatives on the importance and vitality of the United 
States alliances with Japan and the Republic of Korea and our 
trilateral cooperation in the pursuit of shared interests.
    Pursuant to notice, for purposes of markup, I now call up 
H.R. 3501, the Safeguard our Elections and Combat Unlawful 
Interference in our Democracy Act.
    The clerk will report the bill.
    Ms. Stiles. ``H.R. 3501, to expose and deter unlawful and 
subversive foreign interference in elections for Federal 
office, and for other purposes.
    Be it enacted by the Senate and the House of 
Representatives of the''----
    Chairman Engel. Without objection, the first reading of the 
bill is dispensed with. Without objection, the bill shall be 
considered as read and open to amendment at any point.
    [The bill H.R. 3501 follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. At this time, I recognize myself to speak 
on the legislation. I will keep my remarks brief.
    Shortly after the 2016 election, when we learned more about 
Russia putting its thumb on the scale to help Donald Trump's 
campaign, Mr. Connolly and I introduced this legislation to 
punish and deter foreign interference in an American election.
    It is simple. Going back to 2015 and extending into the 
future, if a foreign individual or entity is found to have 
interfered with an American election, they would be subject to 
sanctions, freezing any assets on American soil, visa denials 
to keep them out of the country. The message is clear: if you 
meddle with an American election from overseas, there are going 
to be consequences.
    It seems pretty straightforward to me, but I am 
disappointed that our friends on the other side of the aisle 
have so far not been willing to support the measure. The 
reason, we have been told--and this goes back a few years--is, 
well, they do not think it should be retroactive. I beg to 
disagree. I think not enough has been done to hold accountable 
those who stuck their noses in our elections in 2016.
    ``We assess Russian President Vladimir Putin ordered an 
influence campaign in 2016 aimed at the U.S. Presidential 
election.'' And let me quote that again because it is words of 
the United States intelligence community. Quote: ``We assess 
Russian President Vladimir Putin ordered an influence campaign 
in 2016 aimed at the U.S. Presidential election.''
    Special Counsel Robert Mueller said, quote, ``The Russian 
government interfered in the 2016 Presidential election in 
sweeping and systematic fashion.'' That is a quote from Special 
Counsel Robert Mueller.
    It is true the administration imposed some sanctions, but 
the response so far simply does not fit the crime. And every 
time the President is pressed on the issue, he shrugs it off. 
Just look at the way he acted a few weeks ago, sitting next to 
Putin at the G20. He does not take the problem seriously. So, 
we have to.
    To be honest, the notion that we should not punish a 
foreigner who interfered in our election is bizarre and 
contrary to the need to keep American elections sacrosanct. 
Because if we do not look backward, if we just let Russia off 
the hook for what they did in 2016, what is going to stop them 
or others from trying the same thing again? That is why this 
bill needs to go back to the last election, not just look into 
the future.
    If you are interested in protecting American democracy, if 
we want to send a message to Putin and his cronies that our 
elections are sacrosanct, I cannot imagine why we would oppose 
this bill. Because as we get closer and closer to the next 
election, the American people are going to want to know, did 
you do everything in your power to make sure our election is 
safe? Did you do everything you could to guarantee that the 
American people are choosing their leaders, and not some 
foreign power picking our leaders? And if we do not move this 
bill forward, we will not have done enough and we certainly 
will not have done everything in our power, in my opinion.
    So, I urge my colleagues to vote yes, all of my colleagues.
    I thank Mr. Connolly for working with me on this measure.
    And now, I will recognize our ranking member, Mr. McCaul of 
Texas, for any remarks he might have.
    Mr. McCaul. And thank you, Mr. Chairman.
    Today, our committee will mark up 10 measures. I would like 
to first focus on a few of the good, bipartisan bills and 
resolutions that committee Republicans and Democrats have 
worked on together.
    I fully support the Palestinian International Terrorism 
Support Prevention Act, introduced by Mr. Mast, which would 
impose sanctions on those like Iran who provide support to 
Hamas and Palestinian Islamic Jihad. Hamas is a U.S.-designated 
foreign terrorist organization that has killed more than 400 
Israelis and 25 American citizens since 1993. Earlier this 
year, Hamas launched more than 600 rockets into Israel in a 
single weekend, resulting in four civilian casualties, 
including an American citizen.
    This legislation requires the administration to sanction 
any individuals determined to support Hamas. If you support a 
terrorist group that kills civilians, then you should be 
subject to U.S. sanctions. It is just that simple.
    I would also like to thank my colleagues Mr. Deutch and Mr. 
Wilson for introducing the United States-Israel Cooperation 
Enhancement and Regional Security Act. This is a comprehensive, 
bipartisan bill that updates our civil and security cooperation 
with Israel. Specifically, it reauthorizes our security 
assistance to Israel and updates existing law to ensure we can 
quickly supply Israel with defense articles in an emergency.
    We will also be considering a bipartisan resolution, 
introduced by Representatives Schneider and Zeldin, opposing 
efforts to delegitimize the State of Israel and condemning the 
Boycott, Divestment, and Sanctions, or BDS, Movement. The BDS 
Movement unfairly targets Israel with economic, cultural, and 
academic boycotts.
    I am proud to support this measure, although I would have 
preferred that the committee consider my comprehensive bill, 
H.R. 336, which includes actual policy provisions to help the 
United States combat BDS, in addition to sanctions on the side 
and assistance for Israel and Jordan.
    While over 171 Democrats support the resolution we are 
considering today, none have signed the discharge petition to 
bring my bill to the floor for a vote. I would encourage any 
colleagues that would be interested to go one step further in 
support of Israel and sign the petition.
    Mr. Chairman, I am also disappointed that, while we are 
considering many bipartisan measures here today, we are also 
considering House Resolution 326, a one-sided take on the 
Israel-Palestinian conflict. It goes out of its way to rebut 
the current administration's nascent peace efforts and blames 
Israel for undermining the peace process. It does not mention 
the Palestinian Authority's practice of paying individuals who 
commit acts of terrorism. It adds nothing positive to the 
conversation. And what it does do is antagonize one of our 
closest partners while undermining this administration's 
ongoing efforts. And therefore, I must oppose that resolution.
    Last, I am concerned with the Safeguard our Elections and 
Combat Unlawful Interference in our Democracy Act. Let me begin 
by saying I want to pit my record on being tough on Russia 
against anyone's in Congress. I voted for CAATSA, which 
authorizes sanctions for the 2016 interference. I voted against 
the de-listing of Russia earlier this year.
    But this bill needs to be refined. As written, this 
legislation is more about politics than policy, and it seems to 
ignore the substantial taken by both Congress and the 
administration, not to mention the millions of dollars spent 
investigating the Russian interference. The administration has 
sanctioned 18 people under CAATSA, and the Department of 
Justice secured indictments during the Mueller probe for 12 
Russian nationals, all for attempted interference in the 2016 
election.
    In fact, for the past 3 years, the American people have 
heard more about Russian meddling in our 2016 elections, more 
than any other issue out of Washington. To require another 
review of that action now would redirect resources for 
political purposes that should be used to prevent these types 
of attacks in the future.
    So, I urge my colleagues to support the Burchett amendment, 
so that we can have forelooking, bipartisan bill that will 
authorize action against those who attempt to interfere in 
future Federal elections.
    And with that, Mr. Chairman, I yield back.
    Chairman Engel. The gentleman yields back.
    I am aware of only one amendment to this measure.
    Mr. Connolly. Mr. Chairman.
    Chairman Engel. Mr. Connolly.
    Mr. Connolly. I thank the chair. I would like to just 
address the bill you and I have introduced now in three 
Congresses.
    Chairman Engel and I first introduced this bill in December 
2016, following broad consensus among the U.S. intelligence 
community that Russia directed a deliberate effort to interfere 
with the U.S. election process in 2016. We reintroduced it in 
2017, after the U.S. intelligence community published an 
unclassified report detailed an unprecedented, deliberate, and 
multifaceted campaign by Russia to interfere in the 2016 
election. I do not know whether the ranking member thinks they 
were playing politics, but that was their finding in an 
unclassified report.
    And we reintroduced it in this Congress for the third time, 
after the Special Counsel, Robert Mueller's report concluded, 
and I quote from Robert Mueller's report, ``The Russian 
government perceived it would benefit from a Trump presidency 
and worked to secure that outcome through hacking and 
distributing stolen information in 2016.''
    Russia's unprecedented interference in the 2016 
Presidential election should trouble every American and every 
member of this committee. One of our most cherished 
institutions, democratic elections free of foreign 
interference, was attacked.
    And Director of National Intelligence Dan Coats has 
confirmed--by the way, the former Republican Senator from 
Indiana, hardly a liberal Democrat playing politics--he 
confirmed that foreign actors, including Russia, continued to 
interfere during the 2018 midterm elections and, quote, ``are 
already looking to the 2020 elections as an opportunity to 
advance their interests.''
    Santayana said, if we do not learn the past, we are 
condemned to repeat the mistakes of that time. We have to 
acknowledge what happened in 2016. To support the amendment 
that is going to be offered by Mr. Burchett is essentially to 
whitewash history. It is to close our eyes and ears and pretend 
that did not happen and our only concern is prospective. That 
is a false reading of history. In fact, it is intellectually 
dishonest if we agree to it.
    None of us like our motives questioned. And I want to say 
to my friend, the ranking member, my motive is to protect the 
integrity of the American electoral system. It is not to play 
politics. That is why we have introduced this bill three times.
    In the last Congress, the then-chairman of this committee 
made an offer both to Mr. Engel and myself. He said, we will 
mark up your bill, whole and entire, on one condition: you drop 
all reference to 2016. As a matter of principle, we refused. We 
felt that pretending 2016 did not happen, frankly, tainted the 
entirety of the bill.
    The integrity of our election process is at stake, and this 
committee has yet to speak to it, even though it was a foreign 
player, an adversary, Vladimir Putin's Russia, that was the 
agent, confirmed by our intelligence community.
    So, I urge my colleagues not only to support the bill as 
submitted by the chairman and myself, finally after three 
Congresses, but also to resist this amendment that rewrites 
history.
    I yield back.
    Chairman Engel. Thank you, Mr. Connolly.
    Does any other member wish to be recognized or speak on the 
measure or would offer an amendment?
    Mr. Chabot. Mr. Chairman?
    Chairman Engel. Yes, Mr. Chabot.
    Mr. Chabot. Mr. Chairman, move to strike the last word.
    Chairman Engel. Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman.
    I have markups in three committees, this committee, 
Judiciary going on right now, and then, I am ranking member on 
Small Business and we have a markup going on there. So, I would 
like to comment briefly on this and a couple of other bills.
    First, I would like to focus on the pro-Israel legislation. 
Israel is a friend and ally, the foremost democracy in the 
Middle East and a critical partner on so many issues from Iran 
to economic issues like technology. Israel is in a tough 
neighborhood, as we all know, and we ought to do whatever we 
can to support their security and advance our shared interests.
    That is why I am a cosponsor, along with Mr. Deutch and Mr. 
Wilson, on H.R. 1837. And not only does it codify the MOU 
between our two nations to help maintain Israel's qualitative 
military edge, something the Senate, by the way, dropped the 
bill in the last Congress, but it includes several other 
cooperative programs to strengthen our bilateral relationship.
    Likewise, I am an original cosponsor on Mr. Mast's H.R. 
1850, which would sanction Hamas for its truly deplorable 
terrorist attacks that are a constant source of fear for 
Israeli citizens and which prevents Gaza from ever being a 
normal place.
    I would also like to turn to BDS. I am glad that we are 
finally marking up a measure on BDS, H.Res. 246, and I want to 
thank Mr. Schneider and Zeldin for their work on this important 
issue. I could go into that, but I will move on to something 
else.
    It is fundamentally counterproductive in resolving the 
differences between Israel and its neighbors because--excuse 
me. Relative to the one-State solution bill, we are in 
opposition to that. Antisemitism has no place in America, in 
Congress, or in this committee. That is why it is well past 
time that we passed a measure condemning BDS. And I would urge 
my colleagues to support that resolution.
    In addition to the bills on Israel, I would like to briefly 
touch on H.Res. 127, which affirms the important trilateral 
cooperation between the U.S., Japan, and South Korea. I want to 
thank Mr. Engel and Ranking Member McCaul for their work on 
that.
    As a former chairman of the Asia-Pacific Subcommittee and 
having visited both countries a number of times, I believe that 
cooperation between us is critical to peace in the Indo-Pacific 
and counterbalancing China's ambitions. Unfortunately, 
relations between Japan and South Korea keep getting worse over 
World War II grievances. While they have sensitive issues 
between them, if they cannot mend their partnership, China will 
be the only winner.
    This point was made very well in an article in the South 
China Morning Post last week titled, ``How China Can Win a 
Trade War Between Japan and South Korea,'' and I would ask 
unanimous consent that that article be included in the record.
    Chairman Engel. Yes, without objection.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Chabot. And I yield back my time at this point, Mr. 
Chairman. Thank you.
    Mr. Kinzinger. Mr. Chairman, point of inquiry? Mr. 
Chairman?
    Chairman Engel. Yes.
    Mr. Kinzinger. Are we on opening statements or are----
    Chairman Engel. No.
    Mr. Kinzinger [continuing]. We considering the bill?
    Chairman Engel. We are going to do the bill.
    Mr. Kinzinger. Thank you.
    Chairman Engel. I let Mr. Chabot make his statement because 
he had to go, but we are going to go back to the bill.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    Chairman Engel. OK. Does any member wish to be recognized 
for the purpose of offering an amendment to the Secure 
Democracy Act?
    Mr. Burchett.
    Mr. Burchett. Thank you, Mr. Chairman, Ranking Member, and 
members of the committee.
    The amendment I offer today would ensure that the penalties 
prescribed in this bill are forward-looking instead of 
retreading the ground of the 2016 election, which has already--
--
    Chairman Engel. OK. Would the gentleman suspend? I am 
sorry.
    Let me make sure that the clerk designates the amendment.
    Ms. Stiles. ``Burchett Amendment No. 1.
    Insert after Section 1 the following:
    Section 2, Finding.''
    Chairman Engel. Without objection, further reading of the 
amendment will be dispensed with.
    [The amendment of Mr. Burchett follows:]

   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. A point of order is reserved.
    And Mr. Burchett.
    Mr. Burchett. Thank you, Mr. Chairman.
    Congress passed, and President Trump signed, the Countering 
America's Adversaries Through Sanctions Act in 2017. Since that 
time, the administration has sanctioned 18 individuals for 
attempted interference in the 2016 Presidential election under 
that law. Furthermore, the Department of Justice has secured 
criminal indictments of 12 Russian nationals for election 
interference in the course of the Mueller probe.
    I agree with the intelligence community that Russia 
attempted to alter the outcome of the 2016 Presidential 
election. Such behavior is unacceptable and we should always 
take strong action when the foundation of our democratic system 
of government, the right to vote, is threatened by our 
adversaries. In this case, we have done just that.
    However, the bill before us, absent any context, makes it 
appear that neither Congress nor the administration has done 
anything to address this behavior, when, in fact, a law has 
already been enacted and implemented, and to do exactly what 
the legislation purports to do. Focusing on the 2016 election I 
think is more about political points than actual results. 
Passing this bill as is sends a message to the career civil 
servants in Treasury, the lawyers and investigators at the 
Department of Justice, and to the administration that your work 
is insufficient and halfhearted. And given the volume of 
sanctions and indictments that have resulted from this hard 
work, that is a message I am unwilling to send.
    I ask my colleagues to support this amendment, so that our 
resources can be used to focus on and to address any potential 
threat of our elections, and not waste the people's money for 
political gain.
    And, in conclusion, I would tell you, I think that if this 
were actually whitewashing, as was described by my colleague 
and friend across the aisle, that this was whitewashing 
history, then why do not we say whose watch it was actually 
under and who was in the White House at that time, Mr. 
Chairman?
    Thank you very much for your time, and I yield the rest of 
my time back. Thank you.
    Chairman Engel. I thank the gentleman.
    I will first recognize myself to speak on this amendment 
briefly.
    I must respectfully oppose what my friend has offered here. 
The purpose of this legislation is not to rehash the last 
Presidential election. That is not why we wrote it to reach 
back to 2015. This is a question of whether enough has been 
done to respond to the attack on our democracy, and in my view 
the answer is clearly no.
    This is no small matter. A hostile foreign government has 
no business messing with our elections, period. I do not care 
if they are doing it to help Republicans or Democrats; I do not 
want them interfering.
    And the Trump Administration's actions to push back, in my 
opinion, have been inadequate. They drafted an Executive Order 
that could have made a difference, but never used it. In fact, 
the language in this bill mirrors that Executive Order. And 
frankly, the President seems to be living in the past. He 
continues to deny that Russia was responsible for attacking our 
democracy. He sides with Vladimir Putin over our own 
intelligence community. And how can we possibly expect this 
measure to serve as a deterrent if we let the people who did it 
the first time off scot-free? The President seems like he may 
welcome another round of interference. By refusing to say 
whether he would report foreign interference to the FBI, he has 
opened the door to another attack. I thought that he and Putin 
at the G20--I just cringed when I watched what was happening.
    So, if the executive branch will not do the job, we have 
to. And that is why it is essential that this bill, in my 
opinion, look backward as well as forward.
    I oppose my friend's amendment and I urge all members to do 
the same.
    Do any other members wish to be recognized to speak on this 
amendment?
    Mr. Kinzinger. Mr. Chairman.
    Chairman Engel. Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    Chairman Engel. Five minutes.
    Mr. Kinzinger. While I will probably, more than likely, 
vote with my colleagues on this side of the aisle on every 
following thing, I just respectfully say that I will oppose the 
gentleman's substitute amendment and support the underlying 
bill.
    I have no doubt that this bill is largely for messaging, 
and that does bother me. But I think it is correct that Russia 
attempted to undermine our democracy, that not enough has been 
done to recognize and pay for that, and that we have to send, 
as a Nation, as Republicans and Democrats, a very strong 
message that, even if we found everybody involved in the 2016 
election, which I do not think we have, but even if we have, 
this committee is sending a message that we will continue to 
watch for signs of anybody who had any involvement up to that 
point, as well as anybody that will have involvement after.
    Now the thing that I would ask my colleagues on the other 
side of the aisle is resist the temptation to make this about 
politics, and let's do our best to make this about our country. 
Because the best thing that Russia can do is not to meet us on 
the battlefield, not to create more nuclear weapons, but to 
undermine the very foundation of democracy and the very belief 
that your vote counts in an election. Because when people feel 
their vote does not count, whether it is through interference, 
through influence, through hacking, if you feel that way, you 
lose faith in the institution of Congress; you lose faith in 
the institution of the presidency, and you lose faith in your 
government.
    And that faith in the government is the only thing, Mr. 
Chairman, that makes democracy work. It is the only thing. 
Without it, this is just a bunch of people sitting around and 
talking, and we have nobody back home looking at us for 
guidance or leadership because they do not trust us; they do 
not believe us, and they are not even sure if we won the 
election.
    So, this is a difficult position for me on this, and I 
appreciate Mr. Burchett's amendment. I know where his heart is. 
I know he means well on this, and I know all my colleagues do, 
too. But I feel like we have not done enough to recognize the 
reality of what exists, and the more messages we can send, the 
stronger and the more bipartisan we can send those messages, 
the more that we prevent this from happening again in the 
future.
    Because, to my Republican friends, it is going to happen 
against us. To my Democratic friends, it is going to happen 
against you. And when some weird third party comes along, it is 
going to happen against them. And it is going to go on for the 
rest of American times, for the rest of our future history, 
unless we get a hold of this. And I think now is the moment to 
do that. So, with a heavy heart, I say I will oppose my 
friend's amendment, and I will support the underlying bill.
    Mr. Connolly. Would my friend yield?
    Mr. Kinzinger. I will.
    Mr. Connolly. I want to salute the gentleman from Illinois. 
I know it is not easy. And I also want to give him assurance, 
because I co-wrote this bill. This comes from a deep commitment 
to our country that is bipartisan. It is not about positioning 
or messaging, I give him my word. This is about protecting our 
country.
    And this is the first time, I say to my friend, that this 
committee in 3 years has spoken about this issue directly. And 
it is aimed at Russia and other would-be interferers with our 
election process. That is the intent, no other.
    And I salute my friend for his courage and conviction.
    I yield back to him.
    Mr. Kinzinger. And I yield back my time. Thank you.
    Chairman Engel. OK. Thank you.
    Do any other members seek recognition?
    Mr. Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman.
    I support H.R. 3501. The new cold war is not about the 
Berlin Wall, although our Nation, the White House is trying to 
build a wall somewhere else. It is not about missiles or the 
armed race necessarily, although we are concerned about 
countries that are not our friends developing nuclear arsenals. 
The new cold war is about cybersecurity, fundamentally about, 
in this particular debate, about how Russia, as per Volume I of 
the Mueller report, interferes in our electoral system.
    This is critical because the basis of our democracy, the 
deep-rooted basis of our democracy is our electoral system, 
where my vote is just as equal as anybody's votes here in this 
audience. And to have a foreign country which has ill will 
against America interfere, deliberately, pre-meditatively, 
maliciously interfere in our electoral process constitutes a 
clear and present danger. And this is the new cold war. It is 
cyber-driven.
    This bill I think goes a long way to answer to that, not 
just to Russia, but any future nation, China, anybody that will 
choose to engage in this kind of action. And so, I support it. 
I will not vote for this amendment. I would like to see the 
content of the original bill adopted into law.
    And I want to thank, Mr. Chairman, the authors and the 
cosponsors. I am a current cosponsor of the bill, and I will be 
voting in the affirmative.
    I yield back, Mr. Chairman.
    Chairman Engel. Thank you.
    The gentleman yields back. Do other members seek 
recognition?
    Mr.--is that Perry?--yes, Mr. Perry, 5 minutes.
    Mr. Perry. Thank you, Mr. Chairman.
    For the record, I support the gentleman from Tennessee's 
amendment, but I do want to applaud and acknowledge the 
interest on the other side for finally recognizing--the 
Russians have been meddling in the United States, in our 
democracy, since the 1930's, if not before. They have been 
meddling, and it has been ignored by this town over and over 
again. Republicans have always been on the side of stopping the 
communists, the socialists, and their meddling in the United 
States, whether it is Harry Hopkins in the Roosevelt White 
House, John Service heading to China and choosing Mao Zedong 
over Chiang Chai-Shek, you name it, whether it was the Venona 
transcripts that literally proved that everything--whether you 
liked his methods or not--that a great Senator tried to point 
out the communist interference in our government.
    It is high time, and I do want to recognize and acknowledge 
and thank the other party, our gentle friends, the gentlemen 
and gentleladies on the other side, for recognizing this threat 
and being willing to do something about it. We applaud you and 
we are with you.
    Thank you, Mr. Chairman. I yield back.
    Chairman Engel. Thank you, Mr. Perry.
    Mr. Sherman.
    Mr. Sherman. I support the bill. Interference in our 
election is an attack on America. The bill imposes sanctions on 
particular individuals who were involved in that.
    I want to bring to the attention of the committee a 
provision that we were able to add to the NDAA that also 
imposes sanctions on Russia, but on the Russian State rather 
than Russian individuals. That provision says that no American 
entity can invest in Russian sovereign debt. And while this 
provision has gone mostly unnoticed here in the United States, 
it has been noticed in Moscow.
    As we work on this bill, I think it is important that we 
indicate what constitutes interference in elections. If Putin 
wants to sign a favorable intermediate-range missile treaty 
with the United States, and he chooses to do it 2 days before 
our election, it would be great if we could get such a 
favorable treaty. If RT TV, their media outlet, wants to 
editorialize, that is fine. They are doing it in their own 
name, and Americans watching know they are watching Moscow 
propaganda.
    I think it is important, as we move through the process, 
that this bill be limited to things that are wrongful that 
affect our election, including messing with the vote tabulation 
system and the vote casting system; voter registration rolls, 
et cetera; false flag communications where hackers in St. 
Petersburg pretend to be accountants in the San Fernando 
Valley, and the theft, whether it be physical or cyber theft, 
of information. Because I do not want us to be accused of 
chilling free speech, RT TV can say whatever it wants, just as 
other media outlets do. The provision that we passed as part of 
NDAA does just that. It defines what is and what is not 
interference in our election.
    And this bill is necessary. The response so far to the 
Russian interference on our elections has been negligible. A 
few individuals, I believe, have been told they cannot get 
visas. We need to do far, far more.
    So, I look forward to working with the authors of this 
provision to make sure that we deter Russia from interfering in 
future elections. And I think that if Russia can go through the 
2020 cycle without interfering, that at that point we should 
lift some or all of the sanctions imposed for their past 
interference, not because their past interference is not 
wrongful enough to justify permanent sanctions, but because 
they ought to have some incentive to forgo what the last 
speaker just identified has been a decades-long practice of 
illegal interference in our elections.
    With that, I yield back.
    Chairman Engel. Thank you, Mr. Sherman.
    Mr. Wilson.
    OK. Do any other members seek recognition?
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman, but I pass.
    Chairman Engel. Oh, OK.
    Mr. Wilson. So, proceed. Thank you.
    Chairman Engel. Any other members on the Republican side 
seek recognition?
    OK. Ms. Houlahan.
    Ms. Houlahan. Thank you, Mr. Chairman.
    And the Foreign Affairs Committee has historically been a 
committee that champions bipartisanship, and I am really 
grateful to you, Mr. Chair, and also to Ranking Member McCaul, 
for having strived to maintain that commitment. Whether we like 
it or not, bipartisanship is what serves the American people 
best, and reaching across the aisle allows us to pass 
legislation that moves our country forward.
    And the bill today, as I think many of us have recognized, 
could not be more urgent. And as many of us have also 
recognized on both sides of the aisle, Russia did interfere in 
our 2016 election. It is an established fact, confirmed by our 
best intelligence. And I hope that I speak for all my 
colleagues today when I say that any foreign adversary who 
interferes in our democracy must be held accountable, 
regardless of when it happened.
    However, I am really not naive to the difficult position 
that my Republican colleagues are in. This bill should not feel 
like a referendum on the 2016 election, and I can really 
appreciate why some people might feel that way.
    So, last night I did reach across the aisle with what I 
believe to be an amenable solution, to push back the date in 
this bill from January 1st, to retroactively include any 
interference from foreign adversaries in the 2012 Obama 
Administration election as well, not necessarily because there 
is any evidence of interference in that election, as there was 
in 2016, because I wanted and we wanted to make it clear that 
this is not about relitigating the outcome of the 2016 
election, but, rather, about the health of our democracy.
    Frankly, if it were not for the burden it would place on 
our State Department, I would propose pushing it all the way 
back to the 1930's or to 1776. There must be accountability for 
foreign interference in one of the founding principles of our 
Republic, the right of the American people to democratically 
elect our own representatives. It should be investigated and 
punished, regardless of when it happened.
    So, I offer the 2012 date in an effort to make this a 
bipartisan bill, to give us all the chance to send a resounding 
message to the world that the United States will respond 
forcefully to any interference in past elections and will not 
tolerate any such malign activity moving forward. Full stop.
    I am disappointed that the ranking member refused our 
proposal. I reached across the aisle in an effort to protect 
our democracy, and I cannot honestly, for the life of me, 
understand why we are unwilling to compromise in this way in 
order to do whatever it takes to hold Russia accountable and 
foreign powers accountable for helping elect an American 
President, Republican or Democrat, and do whatever it takes to 
prevent such an intervention from happening in 2020 and beyond.
    I also really would love to see this kind of movement come 
out of our committee bipartisanly, and I would have really 
loved it if we had been able to consider this compromise.
    Thank you, Mr. Chair, and I yield back the balance of my 
time.
    Chairman Engel. Thank you, Ms. Houlahan.
    Do any other members on either side seek recognition?
    OK. Seeing none, the question is on the amendment.
    All those in favor say aye.
    All those opposed, no.
    In the opinion of the chair, the noes have it and the 
amendment is not agreed to.
    Do any members seek recognition on the bill?
    Mr. Perry.
    Mr. Perry. Mr. Chairman, I have got an amendment to H.R. 
3501, and I ask for its immediate consideration.
    Chairman Engel. All right. The clerk will designate the 
amendment.
    A little glitch here. Thank you.
    OK. Will the clerk please distribute the amendment?
    Ms. Stiles. ``Perry Amendment No. 1.
    Page 3, line 16, strike `or of any' and insert `of a';
    Page 3, line 17, insert `or of any person acting 
independently of a foreign government before undertaken';
    Page 3, line 20, insert `including by voting, attempting to 
vote, assisting others to vote, or attempting to assist others 
to vote, in a manner that violates the laws of the United 
States after' ''----
    Chairman Engel. Without objection, further reading of the 
amendment will be dispensed with.
    [The amendment of Mr. Perry follows:]

    [GRAPHIC] [TIFF OMITTED] T7050.136
    
    Chairman Engel. A point of order is reserved.
    Mr. Perry, you are recognized for 5 minutes in support of 
the amendment.
    Mr. Perry. Thank you, Mr. Chairman. I thank you, the 
ranking member, and the members of this committee, for your 
indulgence.
    We are debating legislation this morning to combat foreign 
interference in our elections, but the bill as presently 
drafted ignores the largest threat to the legitimacy of 
results. This amendment will correct that by adding to the 
definition ``foreign interference'' the acts of ``voting, 
attempting to vote, assisting others to vote, or attempting to 
assist others to vote, in violation of the laws of the United 
States''. If we are really serious about combating foreign 
influence on our elections, we must get serious about the issue 
of illegal voting.
    The Commonwealth of Pennsylvania found over 11,000 non-
citizens on their voter rolls. The State of Texas found 
approximately 95,000 individuals identified as non-citizens 
registered to vote. As more States and localities are providing 
illegal foreign nationals with driver's licenses and even 
allowing them to vote in local elections, the risk of foreign 
voter registration and participation will only increase. States 
moving to automatic voter registration----
    Mr. Vargas. Point of order, Mr. Chairman. Point of order. 
We did not receive copies of this amendment. Not enough copies 
were made. We did not receive one.
    Chairman Engel. Yes, proceedings will suspend. Let's check 
this out.
    OK. The amendment is being distributed. We want to make 
sure everybody has one.
    OK. Does everyone have a copy? Anyone who does not have a 
copy?
    All right. The gentleman can continue with his statement.
    Mr. Sherman. Reserve a point of order.
    Chairman Engel. Mr. Sherman. OK. Mr. Sherman has reserved a 
point of order.
    Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    Continuing on, States moving to automatic voter 
registration have encountered problems of registering foreign 
citizens to vote in the United States. Due to claimed typos, 
New York passed a bill that would automatically register non-
citizens to vote. California recently admitted to various voter 
registration errors that resulted in 24,500 individuals being 
registered improperly. Each time an illegal foreign national 
votes, an American's legitimate vote becomes irrelevant.
    Mr. Chairman, foreign interference, if we really, truly 
want to get after it--we can talk about Facebook ads and bots, 
and they are, indeed, important, and this bill addresses them--
but certainly we cannot ignore the fact that people from places 
like Russia or China, who do not have the best interest of the 
United States at heart, could come to America, indeed, are 
coming to America, and can be voting in our national elections. 
And so, I hope we are serious about it and include this 
amendment, so that we can counter that.
    If this committee is truly serious about combating foreign 
interference--this is foreign interference in our elections--to 
protect the integrity of the results and maintain confidence of 
the American voter that their vote counts, we simply must adopt 
this amendment. I urge passage, and I yield the balance.
    Chairman Engel. The gentleman yields back.
    Mr. Sherman, on a point of order.
    Mr. Sherman. The first part of this amendment makes it 
applicable to, quote, ``any person acting independently of a 
foreign government''. That would include chiefly Americans 
acting independently of any foreign government. This is the 
Foreign Affairs Committee. What an American does in America, 
not acting on their own and not in conjunction with any foreign 
government, is about as far away as you can get from the 
jurisdiction of this committee as I can imagine. So, for that 
reason, I believe that the amendment is not within the 
jurisdiction of the committee.
    Chairman Engel. Yes, this amendment was not distributed to 
us in advance. That was part of the confusion here. But it does 
not seem to be germane.
    Will the gentleman withdraw his amendment because it is not 
germane?
    Mr. Perry. Mr. Chairman, I am not interested in 
withdrawing. If you are going to choose to make it non-germane, 
that could be your choice and it could move on to another 
multijurisdictional committee. But I think this issue is 
important. We are in the Foreign Affairs Committee. We are 
talking about foreign interference of our elections, and this 
should be added to this legislation one place or another, and I 
want to make that case here. And if other members so desire and 
they serve on other committees, they can take the opportunity 
to take the amendment and offer it in those committees, 
assuming it is not germane here.
    Chairman Engel. Let me rule. The chair is prepared to rule. 
The chair finds that the amendment is not germane. The 
objective of the amendment is unrelated to the objective of 
H.R. 3501. And therefore, I will rule that it is not germane.
    Anyone seeking recognition to speak on the bill?
    Mr. Castro. On the bill. The amendment has been ruled out 
of order.
    Ms. Spanberger. No.
    Do any other members week recognition on the bill?
    Mr. Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman.
    Thank you for ruling on the amendment. I support that 
ruling.
    We heard this before. We heard the President back then say 
that, in fact, he may have won the popular vote because 
thousands and thousands of undocumented voted. In fact, he said 
that, unsubstantiated, that 58,000 out of 95,000 people 
registered in Texas that were undocumented voted. We have been 
down this road before.
    The real issue is how the Russians hacked into many of the 
local/State boards of elections. The issue is how they not only 
hacked into those boards of elections, they even hacked into 
the companies that made the software for these States' boards 
of elections. That means that they have a handle, they have 
interior control and knowledge of the applications and the 
software of our electoral system. At anytime they can come in 
and sabotage it, leading to, again, the erosion of confidence 
in the electoral process by the American people. So, I support 
this bill, Mr. Chairman.
    Chairman Engel. Thank you, Mr. Espaillat.
    Any other members seek recognition on this bill?
    Ms. Spanberger.
    Ms. Spanberger. Thank you, Mr. Chairman.
    I am speaking in support of this bill. It is fundamentally 
important that we do everything possible to protect our 
democracy and to hold those accountable who have endeavored to 
interfere in our elections.
    Notably, I do share the disappointment of many in here that 
this timeline only goes back to 2016. The Mueller report fully 
outlines that there were foreign individuals, Russian 
individuals, who came to our country in an attempt to learn 
about our system and in an attempt to gain information that 
would allow them to sow discord within our communities and 
potentially impact our elections.
    But that will not stop me from supporting this. Because 
when it comes down to it, the bottom line is we all know that 
the Russians interfered with our elections; the Russians hacked 
a major political party; the Russians stole information and 
sought to weaponize it; the Russians had troll farms meant to 
sow divisions within our community.
    And my primary goal here on this committee is to make sure 
that we are protecting American interests, and in this case it 
comes to using our capabilities here on the Foreign Affairs 
Committee to ensure that we do everything possible to protect 
our elections from foreign interference. And that is why I urge 
my colleagues, including those who share disappointment over 
the timeline, to vote for this bill. Notably, it does not stop 
the intelligence community from sharing information about who 
might have come here in 2013, in 2014, in 2015, but it is a 
step forward. It is an affirmative action to protect our 
elections moving forward and to make sure that those who came 
to sow dissent, who came to interfere, are held accountable.
    Thank you. I yield back.
    Chairman Engel. Thank you. The gentlewoman yields back.
    Do any other members seek recognition on this bill?
    Mr. Castro.
    Mr. Castro. Thank you, Chairman.
    I just wanted to offer a point of clarification because I 
do not want to let this misinformation stand. Mr. Perry, 
Representative made a comment about Texas and 95,000 non-
citizens that were registered to vote. Texas actually made a 
terrible error, the Secretary of State and the Governor, and 
had to admit in court that they were wrong. There were never 
those 95,000 people.
    In fact, the title of one of the articles was, ``Texas 
Settles Lawsuit Over Bungled Search for Illegal Votes''. And 
from this article, it says, ``The settlement requires Texas to 
change how it investigates voter citizenship and pay $450,000 
in fees to civil rights groups that brought the lawsuit.'' 
Quote, `` `This settlement brings an end to a deplorable Texas 
farce in which State leaders shamelessly lied about alleged 
widespread fraud by Latino and other immigrants, grabbing 
headlines and national attention,' said Thomas A. Saenz.'' 
Unquote.
    ``The State originally claimed that 58,000 people on the 
list had voted in at least one election since 1996. But, 
significantly, Texas officials failed to exclude voters who 
legally cast ballots only after becoming naturalized 
citizens.'' So, these people became citizens. They were basing 
it off of a search of driver's license applications and 
holders. So, there were never 95,000 people. Texas messed up.
    Thanks.
    Chairman Engel. OK. Thank you.
    Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    I just want to give some context to this whole debate 
because I have been in the middle of it, really, since being a 
young prosecutor in the Justice Department. I was also in the 
October 2016 ``Gang of Eight'' briefing with the DNI and the 
Secretary of Homeland Security, who told me at that time in a 
classified setting that the Russians were, indeed, interfering 
in our elections. At that time, I asked the administration--at 
that time, the Obama Administration--to condemn this action and 
call it out for what it was and prosecute. And I fully 
supported the Mueller probe and the prosecutions as well.
    When I was a young prosecutor in the late 1990's, I 
prosecuted the campaign finance violations, which ultimately 
led us to the Director of Chinese Intelligence, working with 
China aerospace, to put money into a Hong Kong bank account to 
influence the then-Clinton campaign.
    The idea of foreign influence in our elections, as Mr. 
Perry said, is really nothing new. And we should object to it 
at any point in our history. I did as a young prosecutor and 
got justice, and I did when I was briefed in a classified 
setting on this issue.
    I would submit to you this, Mr. Chairman: I would prefer to 
take out any dates and let this committee look at all foreign 
national, foreign government interference in our elections, 
whether it be Russia, whether it be China, whether it be Iran. 
So, I would submit that to you, Mr. Chairman. I would be 
willing to work with you on this bill to make this bill better 
and, quite frankly, more expansive, and not just looking at one 
election and one party and one President, but, rather, anytime 
a foreign government has interfered in our election. So, I 
would hope, Mr. Chairman, you would take me up on this offer.
    And with that, I yield back.
    Chairman Engel. OK. Mr. Reschenthaler.
    Mr. Reschenthaler. Thank you, Mr. Chairman. I appreciate 
it.
    I am going to be voting no, but I just want to explain why 
I am voting no. I think that election interference is, 
obviously, an issue, but I have got an issue with the 
retroactive nature of this bill, looking back to 2016. I think 
that our adversaries in the world, and those who are 
challenging our hegemonic status, are not looking back. They 
are looking ahead.
    We have China who is building a six-carrier fleet to move 
into a blue water navy. We should be very concerned about that. 
China is also making moves in the South China Sea, again, 
challenging our hegemonic power in the Pacific. They are 
crushing opposition leaders in Hong Kong. They have re-
education camps with the Uyghurs. And yet, we are doing 
nothing. We are looking back to 2016.
    Moving to the Middle East, you have a war in Yemen. You 
have Syria. You have Iran who shot one of our drones out of the 
sky and is seizing tankers. That is a problem.
    And then, in our own hemisphere you have Maduro and you 
have a crisis with refugees flooding into Colombia, which 
threatens one of our allies. And yet, we are looking back to 
2016.
    So, to the extent this bill is retroactive, I am against 
it, and that is why I am a no vote.
    Thank you, Mr. Chairman.
    Mr. Connolly. Mr. Chairman.
    Chairman Engel. I thank the gentleman.
    Who am I hearing? Mr. Connolly.
    Mr. Connolly. Mr. Chairman, I hope my colleagues will not 
be lulled into the false argument that what happened in 2016, 
frankly, has been going on since forever and it is no 
different. It is different. It is qualitatively different. It 
is unprecedented. It was systematic. That is why Robert Mueller 
indicted 26 Russian operatives. Never before--maybe because of 
the rise of social media--have we had a foreign adversary 
systematically attempt to interfere and direct the American 
election.
    We must speak out about that. We cannot pretend it is all 
the same; France favoring Jefferson in the 1800 election is no 
different than Russian interferences and bots and fake news and 
fake purchases of Facebook with deliberately false and 
misleading information to the American people in the millions 
is the same. It is not.
    And after three Congresses, the time has come for us to 
speak out as Americans about what Vladimir Putin's Russia has 
tried to do, so it does not happen again. But you cannot 
address the future without quite clearly addressing the past. 
So, do not be lulled into the false argument that it is all the 
same. It most certainly is not. And we must speak out. We must 
be heard. We need to be the voice of the American people.
    Mr. Chairman, if there are no other speakers, I urge us to 
come to a vote.
    Chairman Engel. Do any other members seek recognition on 
this bill?
    If not--Mr. Malinowski.
    Mr. Malinowski. Thank you, Mr. Chairman.
    Just very briefly, because I heard the statement of my 
friend from Pennsylvania about the retroactivity of the bill. 
And just as a point of clarification, it does back to 2016. We 
offered that it would go back to 2012. I would be happy going 
back. As Ms. Houlahan said, she would be happy to go back to 
1776.
    But it also looks forward. And just to be very, very clear, 
the reports that are required in this legislation, the next 
report, obviously, would go back to 2016, but it requires a 
report after every single Federal election forever. So, I 
completely share my friend's concern that this could happen 
from Iran, from China, from many other actors in the future, 
and the bill fully addresses that. This sets up a system that 
allows us in perpetuity to hold foreign actors accountable for 
the types of interference that I think we both are concerned 
about.
    Thank you. I yield back.
    Chairman Engel. OK. The gentleman yields back.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman.
    I am proud to support H.R. 3501, our Secure Our Democracy 
Act, which imposes sanctions on any foreign individual or 
entity who interferes in U.S. elections. Though we have known 
since 2006 that the Russian Government was engaged in efforts 
to interfere in that and in subsequent elections, with the 
release of the Mueller Report earlier this year, the American 
people learned the extent to which representatives of the 
Russian Government attempted to influence and undermine our 
democracy.
    The Mueller Report found that, and I quote, the Russian 
Government interfered in the 2016 Presidential election in 
sweeping and systematic fashion, end quote. These efforts 
ranged from the simplistic to the sophisticated but they were 
intended to sew chaos in our democratic process.
    We also know that Russia and other entities are actively 
engaging in ongoing election interference to this day. We must 
send a strong message that these types of behaviors will not be 
tolerated and will be met with the full force of our law.
    I am very grateful to my colleagues, Chairman Engel and 
Congressman Connolly for their tireless efforts to pass this 
legislation and I urge my colleagues to understand the world is 
watching. The world is watching, our adversaries are watching 
whether or not the Congress of the United States is united in 
our defense of our democracy and our message that no one, no 
foreign adversary has any right to interfere in an American 
election, that elections will be decided by the American people 
and no one else.
    This committee vote is an important vote. It is a moment to 
stand up and to tell the world, Republican, Democrat, 
Independent, it does not matter, as Americans, we will not 
tolerate interference in an American Presidential election by a 
foreign adversary. I urge everyone on this committee to support 
this excellent piece of legislation.
    And I yield back.
    Chairman Engel. The gentleman yields.
    Any other requests for recognition? If not, the question is 
to report H.R. 3501 to the House with the recommendation that 
the bill do pass.
    All those in favor, say aye.
    All opposed no.
    In the opinion of the chair, the ayes have it.
    The ayes have it. The measure is ordered favorably 
reported.
    We now move on, pursuant to notice for the purposes of a 
markup, I now call up the Bass Amendment in the Nature of a 
Substitute to H.Res. 326, Expressing the sense of the House 
regarding United States efforts to resolve the Israeli-
Palestinian conflict through a negotiated two-State solution.
    [The Amendment offered by Ms. Bass follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. The clerk will report the amendment.
    Ms. Stiles. Bass Amendment Number 1 in the nature of a 
substitute. Strike the preamble and insert the following:
    Whereas the special relationship between the United States 
and Israel is rooted in shared national security interests and 
shared values of democracy, human rights, and the rule of law--
--
    Chairman Engel. Without objection, the first reading of the 
amendment is dispensed with. Without objection, the amendment 
in the nature of a substitute will be considered as base text 
and shall be considered as read and open to amendment at any 
point.
    And at this time, I recognize myself to speak on the 
amendment.
    I am glad we are considering measures today to strengthen 
Israel's security and help advance the United States-Israel 
relationship. Israel remains our most important ally in the 
Middle East and I will work every day to make sure that Israel 
will continue to thrive as a Jewish and democratic State.
    In fact, I just returned from a visit to Israel last month 
and, as always happens, when I travel to the region, and the 
ranking member and I have traveled together, my experience with 
the Palestinian and Israeli people only strengthen my resolve 
that we must find the path forward to peace to a two-State 
solution.
    And I agree with the longstanding bipartisan consensus with 
Presidents Clinton, Bush, and Obama that a two-State solution 
is the best way to solve the dispute because, in my decades of 
working on this issue, I have yet to see any other plan, other 
than the two-State solution, that would ensure that Israel 
remained both majority Jewish and democratic and addresses and 
advances the rights and the dignity of the Palestinian people. 
Since the 1990's, that has been the United States policy and 
that of many of our allies and partners around the world, that 
we must approach the Israeli-Palestinian conflict with this 
goal that 1 day there will be a Jewish and democratic State of 
Israel living within secure and recognized borders, alongside a 
viable, peaceful Palestinian State that advances the self-
determination of the Palestinian people. Exactly how we would 
get there remains an open question but the end goal was clear 
with broad bipartisan consensus.
    The United States has a vital role to play in the peace 
process and we must stand firm in our commitment to the idea 
that both Israelis and Palestinians deserve to live with 
security and dignity. So I am pleased that we are considering 
Mr. Lowenthal's measure, H.R. 326, that underscores the United 
States commitment to the two-State solution.
    I consider myself to be one of the strongest supporters of 
Israel in Congress and I truly believe that this resolution 
will go a long way in ensuring that. This resolution is made to 
send a message that unilateral moves, whether they be 
annexation or unilateral steps by Palestinians at the United 
Nations, to gain Statehood status outside the context of a 
negotiated two-State solution will put the cause of peace 
further out of reach.
    While I am disappointed we could not reach consensus on 
this resolution, I know that all members of this committee on 
both sides of the aisle want to see peace in the Middle East 
and that is why I remain committed to a two-State solution. But 
regardless, I look forward to working with Ranking Member 
McCaul, with whom I traveled to Israel, and all of the members 
on this committee on ways to help bring about a peaceful 
solution to the Israeli-Palestinian conflict.
    I urge my colleagues to join me in supporting this measure 
to reaffirm our commitment to the two-State solution.
    Do any other members seek recognition to speak?
    Mr. Zeldin.
    Mr. Zeldin. Thank you, Mr. Chair.
    And first off, I want to say thank you to Mr. Lowenthal and 
to Ms. Bass for their work on this issue. While I am going to 
outline some of my concerns with the bill, it would be lost if 
I did not start off with stating that a lot of this resolution 
I not just agree with but strongly agree with and both Ms. Bass 
and Mr. Lowenthal should be commended for their initiative in 
bringing this forward.
    So three things I just wanted to discuss, as far as my 
concerns with this resolution. First, H.Res. 246, which is 
going to be considered today, and I am looking forward to that 
coming up a little bit later, I thank all of my colleagues from 
Chairman Engel, to his great team, to many others on the other 
side of the aisle here for their work on that bill. Congressman 
Schneider, Chairman Nadler, and others took a leadership with 
H.Res. 246, which sends a strong, powerful statement that 
covers a lot of what this resolution says and more.
    This resolution is basically a watered down--respectfully, 
it is a watered down version of the resolution that we will be 
considering in a bit. There is nothing that this resolution 
does that H.Res. 246 does not do. It just does not have some of 
the strongest, most powerful statements that are in H.Res. 246 
that have garnished over 300 bipartisan cosponsors. That is a 
resolution that, for several months, many members on both sides 
of the aisle have been working very closely with to try to get 
the language right. Chairman Engel and his team have been great 
to work with on H.Res. 246, working with the lead Republican, 
other members of this committee.
    But that is the first concern is that this resolution does 
not include anything that the other resolution does not 
include. And it is missing a lot of the most powerful 
statements that were very important priorities for many 
members, I believe, on both sides of the aisle.
    The second component is with regards to a line that 
references principles set forth by President Barack Obama and 
Secretary of State John Kerry in December 2016. That is 
specifically Stated in the resolution.
    And I disagreed with certain aspects of President Obama's 
foreign policy as it related to Israel, specifically, but what 
was of huge concern to me was what happened after the November 
2016 election, whether it was U.N. Security Council Resolution 
2334 that passed without a United States veto that, for the 
first time at that Security Council, was saying there was a 
violation of international law and calling it occupied 
territory, language that is included in the original text that 
Mr. Lowenthal put out, and we worked behind the scenes to get 
U.N. Security Council Resolution 2334.
    And part of the principles that are specifically referenced 
in this resolution became very controversial and many people in 
and out of Congress had a huge problem with the way it was 
presented, not just at the United Nations but, if you remember, 
Secretary Kerry gave a speech. It was about 90 minutes or so 
long and he was lecturing Israel on everything in his mind that 
he believed that they were doing wrong, without having the 
accountability that was necessary with regards to the 
Palestinians. And that is where many of us observed, you can be 
a neutral arbiter without sacrificing being an honest broker.
    One other paragraph talks about, quote, opposed settlement 
expansion moves toward unilateral annexation of territories. 
This is the third point I wanted to put out. If we are going to 
get into listing the preconditions that should be necessary, 
the most important preconditions that aren't included but 
should be: one is recognizing Israel's right to exist as a 
Jewish State; two, ensuring a demilitarized Palestinian State; 
and three, recognizing Jerusalem as the rightful capital of 
Israel. Those are three preconditions as part of historical 
negotiations between Israel and the Palestinians that, if we 
were going to get into listing preconditions in this 
resolution, I would encourage the authors to add the additional 
preconditions, especially the most important ones.
    So those are the three most important reasons why I am 
concerned with this bill and the underlying amendment, mostly 
because this resolution takes out a lot of what is in 246 that 
we will be considering later that we support most strongly.
    And I yield back.
    Chairman Engel. The gentlemen yields back. Thank you, Mr. 
Zeldin.
    Mr. Sherman, you are cognized for 5 minutes.
    Mr. Sherman. This resolution is imperfect, as all are. It 
repeats things that we have already said. Every resolution on 
the Middle East repeats something we have already said.
    It is not comprehensive. We do not necessarily have enough 
paper to be comprehensive in stating all of the relevant 
factors in the Middle East.
    I think it is a good resolution. I look forward to working 
with the gentleman from New York on the resolution he refers to 
and we can--this will not be the last statement of this 
committee on the Middle East.
    I do not think that we have to criticize the resolution 
because it mentions President Obama and then there are things 
that President Obama did that we disagree with. There are 
things that Jefferson, Jackson, and Roosevelt did that I 
disagree with. The fact is, it was regrettable that we did not 
veto that resolution in the U.N. but that, I think, is to the 
side of this resolution.
    This resolution is important because it talks about how 
critical it is to have a two-State solution. I want to caution 
some--we in America are in a multi-ethnic society. Our goal is 
for everyone to get along and everyone to have an equal right. 
And that is a noble goal. And so we might think that those who 
are proposing a one-State solution for the Holy Land have a 
similar goal. If their goal is to have French-speaking and 
Dutch-speaking Belgians walking hand-in-hand down the streets 
of Brussels, each in their own community or linguistic 
community, each recognizing with the joy the citizenship of the 
other in peace, harmony, and equality, that is not what the 
advocates of the one-State solution are supporting.
    On the Palestinian side, Hamas supports a one-State 
solution, so long as, first, the Holy Land is ethnically 
cleansed of all Jews and then they have an internal argument 
about whether to exclude those Jews who can document that their 
families lived there in roughly the year 1600. The Ottoman 
Empire was not noted for its issuing of identity documents 
designed to survive hundreds of years.
    And there are those in Israel who believe that Israel 
should annex Ramallah but none of them believe--who are 
advocating that believe that the residents of Ramallah should 
have a vote in electing the Israeli Knesset.
    A two-State solution is the solution. And now when a two-
State solution is under the--seems to have bleak prospects is 
precisely why we need to pass this resolution. And I can 
recognize why those in Israel are not optimistic about a two-
State solution. Again, again, and again, the Palestinian side 
has rejected negotiations to create a two-State solution.
    At Camp David, offers were made that are far beyond what 
could be made today by any Israeli Government, brokered by the 
United States and President Bill Clinton and rejected.
    But ultimately, we need a two-State solution. 
Unfortunately, not only does Hamas reject the two-State 
solution, but the Palestinian Authority continues to demand 
that if there are two States, that the Jewish State must accept 
any Arabic-speaking person who claims, and, again, the Ottomans 
had no records, that they or any of their ancestors ever lived 
in Israel has the right to move there. So, from the 
Palestinians Authority side, we have advocacy for a two-State 
solution, as long as they are both Arab States.
    This resolution indicates that we need two States for two 
people, democratic, equal rights for the citizens of those 
States. It is a necessary resolution and I have never voted for 
a perfect resolution. I will not be voting for a perfect 
resolution today but we need to pass this resolution.
    Mr. Zeldin. Will the gentleman briefly yield? Will the 
gentleman yield?
    Mr. Sherman. I will see if--I will yield you 10 seconds.
    Mr. Zeldin. Thank you. I just wanted to point out, and I 
appreciate you bringing up the point that I mentioned about 
President Barack Obama and Secretary Kerry. It was only the 
words in December 2016. So my issue was that we are referencing 
their statement of principles and positions at the election but 
I just wanted to clarify.
    Mr. Sherman. It was in the same month that something else 
happened. I do not regard that as a criticism on the 
resolution.
    Mr. Zeldin. Well--I yield back my time.
    Chairman Engel. Any other members wish----
    Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    I want to speak in opposition to House Resolution 326 for a 
myriad of reasons. First and foremost, the United States should 
not be prescribing or determining an outcome of the Israeli-
Palestinian conflict. Most of us on this committee strongly 
advocate for a peaceful negotiated solution to the conflict and 
the United States does have a role to play in helping our ally, 
Israel, and ensure both sides come to the table in good faith.
    However, it is not the role of the United States to be 
determining the outcome. Whether the resolution to the conflict 
involves one State, two States, three States, or eight States, 
that is the decision of the Government of Israel and the 
representatives of the Palestinian people.
    Second, this resolution is a clear one-sided rebuke of the 
work of the Trump administration that has garnered wholly 
partisan support. As of this morning, there are 147 Democratic 
cosponsors on this legislation and not a single Republican. 
This is despite the concept of a two-State solution 
historically garnering bipartisan support.
    This resolution calls for the United States to offer a 
peace plan, consistent with previous United States proposals, 
taking a clear shot at the Trump administration and his team 
who have made resolving the Israeli-Palestinian conflict a core 
pillar of the administration's Middle East policy. This is not 
the normal operation of this committee. And bringing forth this 
resolution on the same day our committee is finally addressing 
a serious and direct threat to the State of Israel, the BDS 
Movement, clearly undercuts the work of this committee.
    And I just want to address the comments from my good friend 
and the good gentleman from Texas. He is correct that there was 
a lawsuit regarding the purge of voters that were naturalized 
later. However, or how were the people registered to vote 
before they were naturalized is the question. Were people 
naturalized? Certainly people were naturalized later but the 
question is: Why were they on the voting rolls prior to being 
naturalized? Texas, in the settlement, has not admitted fault 
and they are still exploring the rolls.
    So the point is about the lawsuit, sure, you are right, 
there was a lawsuit. But the question is: How were people on 
the voting rolls prior to being naturalized?
    And with that, I yield the balance.
    Chairman Engel. OK, the gentleman yields back.
    Ms. Bass is recognized for 5 minutes.
    Ms. Bass. Thank you, Mr. Chair, for bringing these bills to 
the committee today.
    I would specifically like to speak in favor of H.Res. 326, 
Expressing the sense of the House regarding U.S. efforts to 
resolve the Israeli-Palestinian conflict through a negotiated 
two-State solution that was introduced by Congressman Lowenthal 
and I, in which I was an original cosponsor, along with 
Representative Connolly.
    This bill was introduced because Members of Congress are 
concerned that the current administration's policies in Israel 
may not adhere to the longstanding bipartisan U.S. policy 
promoting a negotiated two-State solution that supports the 
self-determination of both Israelis and Palestinians.
    Congress has also grown increasingly concerned by Prime 
Minister Netanyahu's decision to build a coalition with the 
extreme far right of Israeli politics for support. These moves 
have been criticized across the Israeli political spectrum. For 
decades, both Republican and Democratic administrations have 
sought to play a proactive role in advancing a two-State 
solution to the Israeli-Palestinian conflict that would result 
in a secure, democratic Jewish State living side-by-side with a 
peaceful and democratic Palestinian State.
    Dozens of Israeli security officials recognize that the 
conflict must be resolved in a two-State solution. This 
includes former Prime Minister and Chief of Staff to the 
Israeli Defense Forces Barak, who made clear that a two-State 
solution is the only viable long-term solution. It is a 
compelling imperative for us in order to secure our identity 
and our future as a Jewish and democratic State, closed quote. 
This resolution reflects these sentiments.
    The resolution calls for U.S. policy to support preserving 
conditions conducive to a negotiated two-State solution and the 
resolution resolves that it is the sense of the House that any 
U.S. proposal should expressly endorse a two-State solution as 
its objective. It also notes that unilateral annexation of 
portions of the West Bank would jeopardize prospects for a two-
State solution and could undermine Israel's security and that a 
two-State solution is the best hope to preserve Israel's Jewish 
and democratic nature, while fulfilling Palestinians' right to 
self-determination. The U.S. must remain steadfast in its 
support for a two-State solution, which is the best hope to 
preserve Israel's Jewish and democratic nation--nature.
    I am proud to join my fellow Members of Congress in 
reiterating our support for what has been longstanding 
bipartisan U.S. policy and urge the Trump administration to do 
the same.
    I would also like to highlight the bipartisan resolution 
H.Res. 138, introduced by Congress Member Hastings, expressing 
support for addressing the Arab-Israeli conflict in a 
concurrent track with the Israeli-Palestinian peace process and 
commending Arab and Muslim majority States that have improved 
bilateral relations with Israel. This resolution, Hastings' 
resolution, expresses a sense of the House in support of 
efforts to address the Arab-Israeli conflict in a concurrent 
track with the Israeli-Palestinian peace process and commends 
Arab and Muslim majority States that have improved bilateral 
relations with Israel. It expresses support for progress toward 
a lasting two-State solution and encourages further regional 
progress toward such an approach.
    Thank you and I yield back.
    Chairman Engel. The gentlewoman yields back.
    Mr. Mast.
    Mr. Mast. Thank you for the recognition, Mr. Chairman.
    I want to bring up a couple points in opposition to this 
piece of legislation and to read directly from the text. In the 
whereas clauses, it States: offers Israel long-term security 
and full normalization with its neighbors. I think it is a joke 
if anybody takes that as some kind of whereas fact that a two-
State solution offers long-term security to the Nation of 
Israel.
    Let me go on. That it recognize the Palestinian right to 
self-determination and enhance, again, Israel's long-term 
security and normalization with its neighbors.
    Now, to put this into perspective, in a few moments we are 
going to speak about a bill, 1850, Palestinian International 
Terrorism Support Prevention Act of 2019, of which we 
specifically address anybody that has any ties to Hamas. And 
why do we identify those that have ties to Hamas? And I was 
going to speak about this when we get to that bill but to go 
and speak about the history of Hamas, let's just start: 2003, 
suicide bomber disguised as ultra-Orthodox Jew detonates 
himself, 16 killed; August 2003, suicide bomber detonates 
himself on bus, killing 20 Israelis; January 2004, Hamas female 
suicide bomber kills four Israelis; March 2004, double attack 
on Israeli Port of Ashdod kills ten Israelis; August 2004--and 
I could go on year, after year, after year reading about these 
links between Hamas terrorism.
    And let's go to 2006 and I will acknowledge there is a 
separation between the Palestinian Authority and Hamas between, 
obviously, the West Bank and Gaza. There, of course, is 
separation there. But let's talk about what happened in 2006. 
Hamas wins a landslide victory in the Palestinian legislative 
elections, gains the majority within their parliamentary body. 
Their version of Congress. Hamas gains the majority.
    We are about to vote on a piece of legislation condemning 
and calling for action against anybody that ties themself to 
this group and we want to speak about making a State out of 
that exact same group of individuals.
    This should make sense to nobody, in my opinion.
    And with that, I believe, Mr. Zeldin, were you still 
seeking time to be yielded to? OK.
    And with that, I yield the balance of my time back to the 
Chair.
    Chairman Engel. The gentleman yields back.
    Mr. Castro, did you want time? No.
    OK, Mr. Levin.
    Mr. Levin. Thank you very much, Mr. Chairman. I wish to 
speak in support of H.Res. 326.
    Twenty-nine years ago in 1990, I went on an interfaith 
delegation to Israel and Palestine with Jewish, and Christian, 
and Muslim community leaders from the Detroit area. And we 
traveled all around Israel and we went to Gaza, which then was 
under Israeli control, and we went to the West Bank and met 
with Palestinian leaders of all kinds as well.
    And it was so clear, at that time, that it was an urgent, 
urgent matter to resolve the conflict through a two-State 
solution as the only way to maintain a Jewish and democratic 
Israel and the only way to vindicate the legitimate aspirations 
of the Palestinian people. And now we have gone 29 more years 
without accomplishing that.
    The most important thing about this resolution is that it 
tries to maintain the long and completely bipartisan American 
foreign policy of resolving this conflict in a way that 
maintains security and democracy in Israel and provides, at 
long last, the rights for the Palestinian people to have their 
own homeland.
    The most important danger for Israel that can come in this 
country is making support for it partisan. So that is why this 
resolution is so important and why I urge my colleagues on the 
other side of the aisle to continue our many decades of working 
together to seek a just two-State solution to the Israeli-
Palestinian conflict.
    Thank you, Mr. Chairman. I congratulate Mr. Lowenthal and 
Ms. Bass for their great work on this and I yield back.
    Chairman Engel. I thank the gentleman.
    Anybody on the Republican side who wishes to speak?
    OK, hearing none, Ms. Omar.
    Do any other members wish to speak? No.
    OK, hearing no further requests for recognition, the 
question is to report H.Res. 326, as amended, to the House with 
the recommendation that the resolution be passed.
    All those in favor, say aye.
    All opposed, no.
    In the opinion of the chair, the ayes have it.
    The ayes have it. The measure is ordered favorably 
reported.
    Pursuant to notices for purposes of a markup, I now call up 
the en bloc package consisting of the Amendment in the Nature 
of a Substitute to H.Res. 246 with the Zeldin Amendment; H.R. 
1850; the Amendment in the Nature of a Substitute to H.R. 1837; 
H.Res. 138 with the Wilson Amendment; H.Con.Res. 32; H.Res. 
442, with the Malinowski Amendment in the Nature of a 
Substitute; H.R. 2097; and H.Res. 127.
    [The Bills, Resolutions, and Amendments en bloc follow:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. I will now recognize myself to speak on the 
en bloc measures. I am pleased to support all of these measures 
before us today and I thank our members on both sides of the 
aisle for their hard work. We have several good bipartisan 
measures before us today that help advance the U.S.-Israel 
relationship, strengthen Israel's security, and move toward a 
two-State solution.
    First, the United States-Israel Cooperation Enhancement and 
Regional Security Act, H.R. 1837. This legislation cultivates 
the relationship between the United States and Israel, touching 
on how our countries learned from one another on a wide range 
of issues in helping veterans confront issues with PTSD to 
advancing space cooperation and improving water and 
desalination issues. This legislation also advances critical 
priorities for both Israelis and the Palestinians. It helps 
restore U.S. assistance to Palestinians and gives American 
victims of terrorism a clearer pathway to justice in American 
courts.
    I welcome this opening for economic and security assistance 
for the Palestinians to move ahead. As some of us learned in 
recent travel to Israel, there are major security 
considerations for both Israelis and Palestinians now that the 
security assistance has been cutoff due to interpretations of 
the underlying law. It is also important that we resume 
programs that promote tolerance and peace-building.
    I thank Congressman Deutch, Ranking Member McCaul, and 
Congressman Wilson for their work on this measure. I hope it 
will help provide some justice to families of the victims of 
Palestinian terrorist attacks.
    And as we meet today, violence continues to terrorize the 
Israeli people. Only a couple of months ago, Israelis endured 
hundreds of rocket attacks from Gaza, with attacks meant to 
threaten civilians. I am glad we are considering the 
Palestinian International Terrorism Support Prevention Act, 
which puts new sanctions on those who sponsor Hamas and Islamic 
Jihad.
    I thank Mr. Mast and Mr. Gottheimer for their leadership in 
crafting this important measure.
    We will also consider H.Res. 246, a resolution that points 
out that the Global Boycott, Divestment and Sanctions Movement, 
or BDS, hinders progress on reaching a two-State solution to 
the Israeli-Palestinian conflict. The Global BDS Movement 
demonizes only one side of this conflict and it puts the onus 
entirely on Israel to solve this protracted issue when, in 
reality, the Palestinians need to do their part to move toward 
a solution.
    Almost 80 percent of the House has cosponsored this 
resolution and I am glad we are able to move it forward today. 
I thank its bipartisan sponsors, Representatives Schneider, 
Nadler, Zeldin, and Wagner for their work on this important 
issue.
    Next I want to discuss an issue that is particularly close 
to my heart, H.Con.Res. 32, which deals with the murder of the 
Bytyqi brothers in the Balkans. Ylli, Agron, and Mehmet Bytyqi 
were three brothers from New York State who were killed 
execution-style by Serbian officials after they mistakenly 
crossed the unmarked Serbian-Kosovo border. Their bodies were 
discovered with their hands bound behind their backs in a mass 
grave in 2001.
    Serbian President Vucic promised me more than 2 years ago 
that this Government would bring the murders to justice. It is 
simply unacceptable that no Serbian individuals have been 
brought to justice for these murders. Apparently, there is not 
even a serious criminal investigation underway. This is 
outrageous.
    As chairman, I will continue to speak on this and support 
legislation that addresses this injustice. Today's resolution 
makes it clear that Serbia must fully investigate the Bytyqi 
brothers case and bring justice to the families of these 
murdered New Yorkers. U.S.-Serbia relations depend on Serbia's 
adherence to the rule of law, and human rights, and commitment 
to prosecute horrendous criminal cases such as this.
    A few weeks ago, when I was in Serbia, I spoke directly 
with the Serbian President Vucic to tell him that the Bytyqi 
case must be resolved. I said this to him many times. I have 
had promises that it would be resolved but, so far, no results.
    Finally, I want to mention my resolution on the importance 
of a trilateral cooperation between the United States, Japan, 
and the Republic of Korea. It is critical that our three 
nations are able to work together. We have too many urgent 
national security concerns not to do so. So I am very troubled 
by the growing tensions between Japan and South Korea and I 
urge both countries to find a way forward which restores their 
ability to cooperate with each other and with us. This is a 
good resolution and I urge my colleagues to join me in 
supporting it.
    Again, I support all the measures in our en bloc package 
and I urge all members will join me in doing so.
    I will now recognize Mr. Wilson for any remarks he may 
have.
    Mr. Wilson. Thank you, Chairman Engel, and Republican 
Leader Mike McCaul for calling today's markup.
    I am a strong supporter of many of the measures before us 
today and I thank the committee staff, both majority and 
minority, for their hard work in advance of today's markup.
    I would like to begin by thanking our colleague from 
Illinois, Mr. Brad Schneider, and Congressman Lee Zeldin of New 
York for their work on House Resolution 246 opposing efforts to 
delegitimize the State of Israel and the Global Boycott, 
Divestment and Sanctions Movement targeting Israel. This 
committee has spent considerable time and effort working to 
safeguard Israel from the many security threats it faces. But 
Israel faces another threat--the threat of delegitimization. 
This threat is more pernicious. It masquerades as a peaceful 
activism but its ultimate goal is to delegitimize the Jewish 
State and eventually to see its complete destruction. 
Extremists are very clear, as they shout death to Israel, death 
to America.
    Today, this committee will send a clear message that we 
oppose BDS and all other efforts to unfairly single out Israel. 
It is not only anti-Semitic, it undermines the possibility for 
potential negotiated solution. I urge our colleagues to support 
this important resolution.
    I would also like to commend our colleague, Mr. Brian Mast 
of Florida, for his extensive work on H.R. 1850, the 
Palestinian International Terrorism Support Prevention Act of 
2019. This important legislation would sanction any individual 
entity and government that supports Hamas or Palestinian 
Islamic Jihad. Today, Mr. Mast will be putting terrorist 
supporters around the world on notice: If you harbor, aid, or 
abet these murderous Palestinian terrorist groups, you will 
face stiff consequences.
    I should also note that this past Friday a senior Hamas 
official urged Palestinians abroad to kill Jews everywhere. 
Quote: We must attack every Jew on the globe by way of 
slaughter and killing. End of quote. These are the exact words. 
Enough is enough. Anyone supporting this group's murderous 
agenda is just as guilty as those terrorists. These hate-filled 
words come as a reminder to us today on how important this bill 
is.
    And I thank Mr. Mast, again, for his presence and 
leadership on this issue.
    I am also grateful for my colleague, Mr. Ted Deutch, the 
Chairman of the Middle East, North Africa, and International 
Terrorism Subcommittee for his work on H.R. 1837, the United 
States-Israel Cooperation Enhancement and Regional Security 
Act.
    This critical bill authorizes $3.3 billion annually in 
funds to be authorized for foreign military financing for 
Israel for fiscal years 2019 to 2023. It expands cooperation 
between our two countries in every field imaginable--science, 
technology, energy, water, and more. It also correctly points 
out that the Anti-Terrorism Clarification Act, the ATCA, to 
make it easier for U.S. victims of Palestinian terrorism to sue 
the Palestinian Authority.
    Thank you, Chairman Deutch, for your tireless efforts to 
support our cherished friendship with the State of Israel.
    Last, I would like to thank our colleague and chairman of 
the Helsinki Commission, Mr. Hastings, for his thoughtfulness 
of House Resolution 326 regarding the two-State solution for 
the Israel-Palestinian conflict. My amendment to this 
resolution, in cooperation and notice with Chairman Hastings, 
would simply clarify that peace between Israel and other Arab 
States should not have to wait until the resolution of the 
Israel-Palestinian conflict.
    In recent years, we have seen an inspiring increase of 
relations between Israel and various Arab countries. Just last 
month, the Foreign Minister of Bahrain commented, quote, Israel 
is part of this heritage of this whole region, historically, so 
the Jewish people have a place among us. End of quote. Comments 
like this are unprecedented and should be encouraged. Peace 
between Israel and Arab States should not have to wait for the 
resolution of an intractable conflict. I am grateful for the 
Arab States of the region to follow the model of Bahrain and 
others for the sake of the future of the Middle East, which 
clearly would be mutually beneficial for all parties.
    With that, I yield back the balance of my time.
    Chairman Engel. The gentleman yields back.
    Mr. Cicilline for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman. I rise in support 
of the en bloc package before the committee. I am proud to be 
an original cosponsor of Mr. Deutch's bill, H.R. 1837, the 
U.S.-Israel Cooperation Enhancement and Regional Security Act, 
which reaffirms our longstanding commitment to ensuring 
Israel's security and will enhance our security and economic 
partnerships on a number of important fronts. It is the only 
democracy in the strategically important region. Both of our 
countries will benefit from deeper relationships in cyber, 
energy, education, development, and other areas.
    I am pleased that this bill also includes a provision I 
authored in H.R. 2488, the U.S.-Israel Cybersecurity Center of 
Excellence Act. This provision will allow us to take the first 
step toward establishing a joint U.S.-Israel Cybersecurity 
Center of Excellence in order to capitalize on the innovations 
in the cyber sphere occurring in both the United States and 
Israel by requiring the State Department to report on the 
impact of creating such a center. Thank you to Chairman Deutch 
for your leadership on this issue.
    Finally, I want to say a few words about the bills related 
to the Israeli-Palestinian conflict and the BDS Movement. I am 
grateful to Mr. Lowenthal for his introduction of H.R. 326, 
which reaffirms the longstanding bipartisan commitment to 
achieving a two-State solution. At this moment, we feel further 
away than ever of achieving a peaceful solution where a 
democratic Israel can coexist with an independent democratic 
Palestinian State. That is why I think it is so important that 
we show the world that we haven't backed down from our 
commitment to a two-State solution and that we believe the 
United States must continue to play a constructive role toward 
this goal.
    Finally, I support the resolution condemning the anti-
Semitic Global BDS Movement. To be clear, it is every 
American's right to protest and boycott whomever they like. 
Nothing about this bill does or should change that, or should 
be interpreted as impeding on any American's first amendment 
rights. America has a long and rich history of using first 
amendment rights to express strongly held beliefs. What this 
bill does do is call out the Global BDS Movement for its anti-
Semitic rhetoric and actions, and makes it clear that a 
movement that denies the existence of an independent Jewish 
State violates American values.
    I urge my colleagues to support the en bloc package and 
thank you, again, Mr. Chairman for holding this markup and I 
yield back the balance of my time.
    Chairman Engel. Does anyone else seek recognition on the 
Republican side? Is that Mr. Yoho? OK, Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman. I would like to thank 
Ranking Member McCaul and Chairman Engel for holding this 
markup. This morning we will be voting on many substantive 
measures, including some that I have co-sponsored, of which Mr. 
Deutch's bill, H.R. 1837, the United States-Israel Cooperation 
Enhancement and Regional Security Act; Chairman Engle's 
resolution, H.Res. 127 Expressing the sense of the House on the 
importance and vitality of the U.S. alliance with Japan and the 
Republic of Korea, I think it is so important that we do that 
at this point in time, and our trilateral cooperation in the 
pursuit of shared interests; Mr. Schneider's resolution H.Res. 
246, Opposing efforts to delegitimize the State of Israel and 
the Global Boycott, Divestment, and Sanction Movements 
targeting Israel; Mr. Brian Mast's bill, H.R. 1850, the 
Palestinian International Terrorism Support Prevention Act of 
2019.
    Measures in this markup will have immense impact on the 
United States policy for generations to come, hopefully, and 
protect our national security.
    I would like to touch one bill, specifically, H.R. 1850, 
which requires the President to report to Congress on each 
foreign person or country who knowingly provides financial or 
material support for Hamas or the Palestinian Islamic Jihad and 
requires the administration to impose sanctions on the 
identified individuals and countries.
    During a time when we are witnessing an increased 
proliferation of extreme radical terrorist organizations, it is 
essential that we address these bad actors and reprimand those 
in the international community who are helping facilitate those 
atrocities. Terrorist organizations are targeting civilian 
populations all over the world, groups like Hamas, Hezbollah, 
al-Qaida, Al Shabaab, JEM, ISIS all seek to instill fear in 
others through violence and intimidations.
    In fact, we just had a hearing where in Somalia there was a 
7,000 increase--7,000 percent increase in terrorist activities 
by ISIS. In an increasingly divided world, we must come 
together to fight these malicious groups, who have increased in 
number since 9/11. Just last week, 27 people were killed in a 
terrorist attack on a hotel in Somalia. Al Shabaab, a known 
terrorist organization with links to al-Qaida claimed 
responsibility for the attack. To bring an end to this 
divisiveness and evil, the United States and our allies must 
present a strong front against these known bad actors and 
remove them. This will require strength and immediate action 
and we can start right here on this committee.
    I yield back.
    Chairman Engel. The gentleman yields back.
    Ms. Omar.
    Ms. Omar. Thank you, Chairman.
    What are we doing to achieve peace? I believe that simple 
question should guide every vote we take in this committee. It 
was the question that guided Prime Minister Rabin in 1993. It 
was the question that guided President Carter, President Sadat, 
and Prime Minister Begin in 1978. It should continue to guide 
our approach to the Israel-Palestine conflict. I believe the 
best way to guarantee self-determination for both the Israeli 
and Palestinian people is to go through a two-State solution 
based upon internationally recognized borders. This is why I 
proudly supported Mr. Lowenthal's resolution to affirm what has 
been the official bipartisan U.S. policy across two decades and 
has been supported by each of the most recent Israel and 
Palestinian leaders, as well as the consensus of the Israel 
security establishment. That solution is a two-State solution.
    But if we really believe in a two-State solution, we must 
acknowledge the obvious, which is that one group of people 
currently has statehood, while the other lives under indefinite 
military occupation of their land. This is not my definition of 
it. This is the definition of the conservative Israeli leader, 
Ariel Sharon, who in 2003 said, and I quote, to hold 3.5 
million Palestinians under occupation, in my opinion, is a very 
bad thing for us and for them. This is occupation, he said. You 
might not like this word but it is really an occupation. I end 
quote.
    I believe that truly achieving peace means ending this 
occupation and ending the occupation means being honest when 
Israel takes steps to undermine the cause of peace. So when 
Israeli Prime Minister Benjamin Netanyahu says, and I quote, he 
is more committed to settlements than any in Israel's history. 
We should honestly say that it is an impediment to peace. There 
are consequences to these actions.
    When Netanyahu vows to make the occupation permanent by 
annexing Palestinian land in the West Bank at the same time we 
are providing him with billions of dollars in military aid, we 
should say there are consequences to these actions. And in 
previous times, Bush and Reagan have said that.
    But as in all diplomacy, truly pursuing peace is not just 
about punishing bad behavior. We must support efforts to end 
the occupation and achieve a two-State solution. I believe 
firmly that the path to peace does not lie in a violent means. 
As Martin Luther King, Junior said, peace is not merely a 
distant goal that we seek but a means by which we arrive at 
that goal. We should condemn, in the strongest terms, violence 
that perpetuates the occupation, whether it is perpetuated by 
Israel, Hamas, or individuals. But if we are going to condemn 
violent means of assisting the occupation, we cannot also 
condemn non-violent means. We cannot simultaneously say we want 
peace, then openly oppose peaceful means to hold our allies 
accountable. It is precisely when people feel hopeless, when 
people feel that nonviolence does not work, that their voices 
will not be heard, that they turn toward violence.
    This week I introduced a resolution with civil rights 
leader, our colleague, John Lewis, and Rashida Tlaib, who know 
the importance of nonviolent movements. It recognizes the proud 
history of boycott movements in this country leading back to 
the Boston Tea Party. We should honor these movements, and that 
history, and we should honor our commitment to the principles 
that say we must hold our friends to the same standards as we 
hold our adversaries.
    I understand and appreciate the bipartisan nature and 
history of this committee. In fact there are two bills today 
that I am cosponsoring with Republicans. And I have cosponsored 
the Sri Lankan resolution with Mr. Johnson and the resolution 
with Mr. Zeldin. I am also proud to sponsor Mr. Lowenthal's 
resolution that we just voted on and excited that every single 
person was onboard on our side.
    I will not be supporting the en bloc package today.
    Mr. Chairman, I thank you and I yield back.
    Chairman Engel. The gentlewoman yields back.
    Mr. Zeldin is recognized for 5 minutes.
    Mr. Zeldin. Well thank you, Mr. Chairman, and I appreciate 
you bringing this en bloc up today. I fully support this.
    And it is important for me to point out a few things as 
the--as my colleague who just spoke used the frequent use of 
the words of honestly and honest, let's just get to a lot of 
what is left out.
    So the BDS Movement has not distanced itself from Hamas, a 
designated foreign terrorist organization. BDS supporters, 
individually, are not distancing themselves from Hamas either. 
It is wrong to be blaming all Israeli and Palestinian violence, 
quote, as being due to an occupation.
    Last Friday, Fathi Hammad, a senior Hamas official called 
upon Palestinians worldwide to kill all Jews. This is a senior 
Hamas official just before the weekend. During a closed meeting 
in October 2017 between Hamas Chief Sinwar and Gazan youth 
about reconciling with the Fatah movement, Sinwar Stated that 
the time spent discussing recognition of Israel is over and now 
Hamas will, instead, discuss when they will wipe Israel out. 
Hamas uses women and children as human shields. They declare 
Jihad as an obligation. They deny humanitarian aid to their own 
people. They deny human rights, launching rockets from Gaza 
into Israel, killing innocent of civilians, tens of thousands 
of rockets in Lebanon being launched by--ready to be launched 
by Hezbollah. Existential threats to Israel all around it, our 
greatest ally in the Middle East, one that there has been an 
historic relationship between our two nations, a beacon of 
hope, and freedom, and liberty in a region of the world that is 
filled with challenges. We want to be neutral arbiters. Let's 
not deny our right and our duty to also be honest brokers.
    To spend an entire time in justifying opposition to H.Res. 
246 based off of everything that is wrong is all due to the 
Israeli occupation. Why not point out the fact that in 2008, 
Israel offered to withdraw from 93 percent of Judea and Samaria 
in the West Bank? Or what about our students on college 
campuses, right now from coast-to-coast, being targeted with 
blatant anti-Semitism in the name of BDS, or taking into 
consideration the founder of BDS and all of his blatant anti-
Semitism, or the Palestinian Authority's pay-to-slay? They 
financially reward terrorism. They treat you to a State 
funeral. They will rename football stadiums after you.
    We want to use honest and honesty in our remarks? We will 
give you a whole lot more honesty. Every year, Hamas mobilizes 
Palestinians in their days of rage to attack Israelis at their 
border, calling them to throw rocks and fire missiles at 
Israel, often results in actual violence. Hamas uses incendiary 
kites and balloons, which has destroyed some 8,000 acres of 
Israeli farms, parks, and forests.
    And I was pointing out just last Friday a senior Hamas 
official called for the murder of every Jew in the world. And 
you want to oppose H.Res. 246 under the justification that all 
the violence is due to an Israeli occupation with no honesty as 
it relates to any of the violence targeting innocent Americans.
    By the way, when this committee passed and it became law 
the Taylor Force Act, that is not an Israeli citizen. That is a 
United States Military veteran, a graduate of the United States 
Military Academy at West Point. And the Palestinians paid the 
terrorists to murder the innocent American-Israeli. We provide 
tax dollars to the Palestinians and we demanded more 
accountability.
    We could go through the list of the 1,355 people killed by 
Palestinian violence and terrorism. I would blame the people 
who are inciting that violence and financially rewarding 
terror. And I would certainly blame the person who actually is 
responsible for that. The person who actually stabs, the person 
who shoots, the person who terrorizes. No, they are not 
martyrs. They are terrorists.
    And Israel, as our great ally, should be supported. And 
this work against BDS--I will point out that the BDS founder, 
if people aren't familiar with it, quote, we are witnessing the 
rapid demise of Zionism and nothing can be done to save it, for 
Zionism is intent on killing itself. I, for one, support 
euthanasia. That is just one of the quotes.
    I encourage all my colleagues on both sides of the aisle 
for what has been fantastic bipartisan support but do not come 
to this committee, and in this Congress, and start blaming 
Israel for all of the violence that is happening to it and 
blaming them for an occupation. That, I will take the strongest 
of exception with. And that is not honest to be accusing Israel 
of everything that they are suffering from. That----
    Mr. Costa [presiding]. The gentleman's time has expired.
    Mr. Zeldin [continuing]. Is criticized for good reason.
    I yield back.
    Mr. Costa. The gentleman yields back.
    And the chair will now recognize the gentleman from 
Florida, Mr. Deutch, for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Chairman, I want to commend the committee for bringing 
up this slate of measures today. I support them.
    I want to thank the committee's staff for working 
diligently to produce the text before us. Particularly, I would 
like to thank Mira Resnick of the majority staff and Gabriella 
Zach of the minority staff for their work on H.R. 1837, the 
U.S.-Israel Cooperation Enhancement and Regional Security Act, 
my bill with Mr. Wilson to strengthen the U.S.-Israel 
relationship to provide justice to victims of terror and to 
allow security and humanitarian assistance to the Palestinians 
to continue. And I thank the Middle East staff director--the 
Middle East Subcommittee staff director, Casey Kustin, for her 
tireless efforts.
    This bill puts Congress on record supporting the 
unprecedented levels of the 2016 MOU and affirms our unwavering 
support for the alliance between the United States and Israel. 
The legislation ensures that Israel has the ability to defend 
herself from the very real threats posed by terrorist 
organizations that sit on her borders. The United States has 
always maintained a strong commitment to ensuring that our ally 
can defend herself and this bill highlights the way in which we 
can guarantee that commitment but our alliance is based on more 
than our mutual security concerns. The bond is rooted in mutual 
democratic values.
    Israel is a vibrant democracy where political parties span 
the spectrum from right to left and vigorously debate and 
disagree on policy. That bond has fostered collaboration in 
many civilian areas, like water and agriculture, which have 
yielded dramatic advancements with global impact.
    This legislation strengthens existing programs for science 
and energy research and promotes the U.S. and Israel working 
together to deliver humanitarian aid in developing countries 
and it expands new areas of civilian cooperation. The 
legislation creates new avenues for regional cooperation in the 
high-tech sector, bringing together Israeli and Palestinian 
researchers, along with regional Arab countries for projects 
that will have a lasting impact on the entire region. And 
finally, this bill is a step toward providing American victims 
of terrorism with a path to justice.
    In 2018, Congress unanimously passed the Anti-Terrorism 
Clarification Act that was meant to allow American victims of 
Palestinian terror attacks the ability to pursue justice in the 
U.S. Courts but an overly broad interpretation resulted in 
Palestinians rejecting any U.S. assistance coming into the West 
Bank and Gaza, instead of consenting to jurisdiction. This had 
the unintended consequence of placing a legal barrier to the 
delivery of security and humanitarian development assistance to 
the West Bank and Gaza.
    U.S. security assistance provides training for Palestinian 
security forces to secure the West Bank and facilitate security 
coordination between Israel and the P.A. This training program 
in the West Bank has resulted in dramatically lower security 
incidents. I was just in Israel 2 weeks ago and met with the 
three-star U.S. general in charge of security coordination. In 
the absence of this funding, security for Israelis and 
Palestinians is threatened. It is threatened by the current 
status and we must pass this.
    Removing this barrier to assistance will also help restore 
life-saving humanitarian aid that went not to Palestinian 
leadership but to the Palestinian people through American 
NGO's. I visited a hospital in East Jerusalem that provides 
life-saving cancer treatment to patients from the West Bank. 
That hospital has lost 25 percent of its budget. All of this 
assistance promotes security and stability. We have a moral 
obligation to make sure that we proceed with this, and we have 
a moral obligation to help life-saving assistance flow, and to 
making sure that victims of terror have the opportunity to be 
in court.
    I also thank my colleagues for House Resolution 246, which 
simply States that Congress opposes the boycott, divestment, 
and sanctions against Israel movement. BDS undermines the 
prospects for a two-State solution and, as House Resolution 326 
affirms, the path toward peace lies in direct negotiations 
between Israel and the Palestinians, leading to two States for 
two peoples living side-by-side in peace and security, a safe 
and secure Israel, and a demilitarized prosperous Palestinian 
State. BDS does nothing to further that goal. It does nothing 
to encourage both sides to return to negotiations and to 
achieve lasting peace.
    And finally, Mr. Chairman, time--as was said earlier, the 
resolution does not restrict any first amendment rights. It 
simply allows Members of Congress to be on the record, opposing 
a movement that attempts to delegitimize Israel's very right to 
exist.
    Time and time again, I hear from college campuses around 
the country, from students, they are Zionists. So am I. They 
support Israel's right to exist as a Jewish State. So do I. And 
they feel intimidated and scared to express that support when 
people are threatening them.
    Palestine from the river to the sea, a chant that is 
routinely heard at BDS rallies, it envisions a world without 
Israel. That is what is controversial. I reject it. This 
committee should reject it. And the whole House should have an 
opportunity to reject it as soon as possible.
    I thank the chairman and I yield back the balance of my 
time.
    Mr. Costa. The gentleman's time has expired.
    The chair will now recognize the gentleman from Florida, 
Mr. Mast, for 5 minutes.
    Mr. Mast. Thank you, Chairman. And while I do not agree 
with every aspect of this en bloc package, I would absolutely 
want to thank the committee, the committee staff, and all of my 
colleagues for their work on this package.
    I would like to speak, specifically at this moment, about 
some issues that I have a very close personal connection to. 
No. 1, being the bill H.R. 1850, the Palestinian International 
Terrorism Support Prevention Act, which targets groups by 
imposing sanctions on those who knowingly and materially assist 
Hamas, the Palestinian Islamic Jihad, or any other affiliate or 
successor organization.
    And I spoke about this briefly earlier. Why support 
sanctions on this group? And I am going to go through a list of 
things that I wrote down. In 1994, Hamas suicide bombing, five 
are killed; March 1996, a series of Hamas-orchestrated suicide 
bombings kill more than 50 people in Israel; June 2003, suicide 
bomber disguised as Orthodox Jew detonates himself on Jerusalem 
bus, killing 16 Israelis, Hamas claims responsibility; August 
2003, suicide bomber detonates himself on a bus, killing 20 
Israelis, Hamas and Islamic Jihad claim responsibility; January 
2004, Hamas female suicide bomber kills four Israelis; March 
2004, double attack at the Israeli Port of Ashdod kills ten 
Israelis; August 2004, Hamas claims responsibility for deadly 
simultaneous explosion on two buses near Beersheba, killing 14, 
wounding more than 80; December 2004, attack at a checkpoint 
border between Gaza and Egypt kills five Israelis; January 
2005, a bomb at the Israeli-Gaza border kills six Israelis.
    January 2006, Hamas, and this is very important, wins a 
landslide victory in the Palestinian legislative elections. 
They take the majority in their governmental body. Why is that 
so important in this en bloc package or anytime we are 
considering any legislation relating to a two-State solution? 
Because we are talking about putting sanctions on any asset 
that knowingly and materially assists Hamas. Well, if the 
government is Hamas, then they are assisting Hamas. They are 
working with Hamas.
    And we are, in the same piece of legislation, talking about 
supporting the right to self-determination of a group of people 
that conduct all of these terrorist attacks, creating and 
acknowledging their government that we would immediately have 
to put sanctions on the moment they became a recognized 
government that is supporting Hamas because their members are 
Hamas. This is an oxymoron that is going on inside of this 
package and that is why I do not support the overall package of 
this.
    To speak about some of the more--some more attacks that 
have gone on--and I do have a special bond, I have friends that 
have been injured. I, myself, put on the uniform of the IDF in 
2015 and met a number of their injured servicemembers from 
these attacks in their House of the Warrior, a place where 
their servicemembers recover--2009, 569 rocket launches, 289 
mortars; 2010, 150 rockets launched; 2011, 680 rockets, 
mortars, and missiles launched at Israel; 2012, 2,200 rockets 
launched into Israel; 2013, 52 rockets launched into Israel, 16 
mortars; 2014, 4,500-plus rockets and mortars launched into 
Israel, and so on, and so on; 2018, 1,100; 2019, so far, 700.
    Let's not live in the ambiguous. What do these rockets look 
like? Ten, twenty, thirty feet high, about as tall as that 
clock on the ceiling. Warheads weighing between 100 and 400 
pounds. To put that into perspective, the explosive device that 
detonated beneath my feet probably weighed about ten pounds. 
The fragmentation distance that would put people in danger of 
probably in all certainty being killed, about 300 feet for one 
of these warheads. Probably 45 feet within these warheads are 
going to be killed by the blast.
    These are the kind of attacks that are being orchestrated 
by Hamas. This is why this legislation is so important and this 
is, additionally, why I stand against a two-State solution.
    Thank you for the time, Mr. Chairman.
    Mr. Costa. The gentleman yields back the balance of his 
time.
    The chair will now recognize Mr. Trone for 5 minutes.
    Mr. Trone. Thank you, Mr. Chairman, and also Ranking Member 
McCaul. This markup gives us an opportunity for the committee 
to weigh in on some very timely topics.
    I would like to highlight the measures I am proud to 
support today. The first is House Resolution 246, which opposes 
the efforts to delegitimize the State of Israel in the Global 
Boycott, Divestment, and Sanctions Movement targeting Israel. 
The BDS Movement is BS. The BDS Movement has been hateful. The 
BDS anti-Semitic tropes are hurtful and harmful to the Jewish 
and Israeli people. This does long-term damage to all the 
people of the region by working against a two-State solution 
and it is a disservice to those who are truly dedicated to 
peace.
    This resolution makes it clear the overwhelming majority of 
the House of Representatives believe we must find a peaceful 
solution to the Israeli-Palestinian conflict but this cannot be 
achieved through unilateral actions of the BDS Movement.
    I want to thank Congressman Schneider of Illinois and 
Congressman Zeldin of New York for introducing it and I am 
proud to vote in favor today.
    Finally, I would like to take a moment to mention the 
United States-Israel Cooperation Enhancement and Regional 
Security Act introduced by Congressman Ted Deutch and Joe 
Wilson. The bill codifies a 2016 MOU on security assistance for 
Israel, and makes clear that the U.S. will be there to support 
Israel in the event of a military attack on the country, and 
also ensures we are cooperating in significant and mutually 
beneficial ways with Israel on the diverse topics like energy, 
agriculture, technology, and humanitarian assistance.
    There are so many synergies to be gained by teaming up with 
Israel on these projects. The bill has 270 bipartisan 
cosponsors and demonstrates an incredible level of support. I 
am proud to be a cosponsor and I urge my colleagues to vote in 
favor of this bill today.
    Thank you, Mr. Chairman, Mr. McCaul. I yield back the 
balance of my time.
    Mr. Costa. The gentleman yields back the balance of his 
time.
    And the chair will now recognize the gentleman from Texas, 
Mr. Wright.
    Mr. Wright. Thank you, Mr. Chairman.
    It has been 41 years since the Camp David Accords and, in 
that 41 years, there have been more meetings, more conferences, 
more attempts at achieving peace than we could possibly 
remember. But one thing that history has proven in that 41 
years is that if the Palestinian people wanted peace, there 
would have already been peace. If they wanted an autonomous 
country, they would have already had it because it was offered. 
Instead, there is no two-State solution and there will be no 
two-State solution, as long as the Palestinian people rely on 
terrorist organizations like Hamas and Hezbollah.
    And with that, I yield the remainder of my time to Mr. 
Zeldin.
    Mr. Zeldin. I thank the gentleman for yielding.
    In addition to the other great resolutions in this en bloc, 
I would also like to express my support for H.Con.Res. 32 
regarding the execution-style murders of Ylli, 25 years old, 
Agron, 23 years old, and Mehmet Bytyqi, 21 years old, who were 
born in the United States and resided in Hampton Bays, New 
York. This month is the 20th anniversary of the Bytyqi 
brothers' murder, which is a poignant reminder as to why the 
House should bring this resolution to the floor as soon as 
possible.
    In July 1999, these three brothers went overseas toward the 
end of the Kosovo War and were arrested by Serbian authorities 
for illegally entering the country when they accidentally 
crossed into Serbian-controlled territory. The brothers were 
kidnapped, murdered, and dumped into a mass grave in Serbia by 
government officials still serving today.
    Since taking office, I have been committed to helping the 
Bytyqi family receive the justice that they have long deserved. 
In February, Chairman Engel and I traveled to Munich to meet 
with Serbian President Vucic, where he once again promised to 
resolve the case of the Bytyqi brothers. Despite many promises 
by Serbian officials to resolve the case of this State-
sponsored murder, there has been no justice served.
    This resolution notes that progress with this investigation 
should remain a significant factor which determines the further 
development of U.S.-Serbian relations. Just last month, 
Congressman Engel and I sent a letter to the International 
Criminal Tribunal opposing the early release of Vlastimir 
Djordjevic, which would be a missed opportunity to obtain 
information that could lead to justice.
    The Bytyqi brothers gave their lives to fight for 
injustice. Now we must return this favor and deliver justice 
for their family.
    I would like to thank Chairman Engel and lead Republican 
McCaul for their leadership and assistance on this issue with 
regards to this resolution.
    I appreciate the committee's consideration of all of the 
resolutions in this en bloc package.
    H.Res. 246 should be pointed out that the lead sponsor, 
Brad Schneider, has been in attendance throughout today's 
hearing. It has been great working with him and our colleagues 
on both sides of the aisle for a resolution that is now up to 
340 cosponsors.
    Mr. Costa. Well, thank you, Congressman Zeldin. Your 
acknowledgments will be recognized appropriately.
    So yielding back the balance of your time, the Chair wants 
to, sooner than later, close this committee hearing, and will 
briefly recognize Congressman Sherman.
    Mr. Sherman. I strongly support all of the en bloc and have 
a long speech for each of them but will just say H.Res. 246 is 
necessary. It has been attacked as somehow a violation of free 
speech. It is a nonbinding resolution that simply expresses 
Congress' free speech on this issue. Only on certain American 
campuses is this thought to be a violation of the first 
amendment for somebody to simply say something that is in favor 
of Israel.
    And finally, on 442 that recognizes the 10-year anniversary 
of the Sri Lanka--the end of the Sri Lankan civil war, the Sri 
Lankan Government has not done nearly enough to heal the 
conflict. The military continues to occupy much Tamil land, 
that was seized during and immediately after the war, and this 
land needs to be returned to really put the war--to really 
create peace.
    The government has also failed to meet its promises to 
amend the constitution to give more autonomy and power to the 
Tamil regions. And evolution of power to local levels is the 
best ensure future peace.
    With that, I yield back.
    Mr. Costa. The gentleman yields back.
    Are there any other members seeking recognition? I hope 
not.
    Well, hearing none and seeing none, the chair will now 
recognize himself briefly.
    I want to thank the Ranking Member McCaul and Chairman 
Engel for the good work that they and the committee members 
have done on this en bloc series of resolutions, legislation, 
and amendments that reflect, I think, a consensus on this 
important Foreign Relations Committee that attempts to every 
day work on behalf of the American people, in terms of what is 
in the best interest of America's foreign policy.
    Clearly, the challenges that we discussed here today as it 
relates to the Middle East, particularly with regards to Israel 
and the West Bank, the Palestinians, have been vexing issues 
for decades. My first visit to Israel was back in 1981. I have 
had numerous visits to that part of the world, like many 
members of this committee. I actually spent a vacation just a 
few years ago in Israel.
    While there has been progress made in many areas, the 
ability to arrive at a two-State solution still seems to be 
very, very difficult, as we all know. But I think that the good 
will and the good work in a bipartisan effort by this committee 
will continue to try to move the ball forward, ultimately, to 
find a two-State solution that will resolve the challenges we 
see there and, hopefully, have a lasting peace. Certainly, that 
is the goal that we all share.
    Hearing no further requests for recognition, then, without 
objection, the committee will proceed to consider the noticed 
items en bloc. A reporting quorum is present. Without 
objection, each measure is considered as read. The amendments 
to each are considered as read and agreed to.
    The question occurs on the measures en block, as amended, 
if amended.
    All those in favor, say aye.
    All those opposed?
    Hearing none, in the opinion of the chair, the ayes have 
it.
    The measures considered en bloc are agreed to and, without 
objection, each measure is ordered favorably reported, as 
amended, if amended, and each amendment to each bill shall be 
reported as a single amendment in the nature of a substitute.
    And, without objection, the staff is authorized to make any 
technical and conforming changes to any of the measures 
considered during today's markup.
    And we thank the staff in a bipartisan fashion for all of 
their good work.
    The chair will now recognize Mr. McCaul for a request.
    Mr. McCaul. Thank you, Mr. Chairman.
    Pursuant to House Rules, I ask that members have two 
calendar days to file with the clerk of the committee 
supplemental, additional, or minority views on any of the bills 
ordered reported by the committee today.
    Mr. Costa. All right. This concludes the business for the 
day. I want to thank Ranking Member McCaul, and for all the 
committee members, and Chairman Engel for allowing me to close 
this hearing, all of the committee members for their 
contributions, and assistance in today's markup, and the 
comments that were made.
    At this time, the committee now stands adjourned.
    [Whereupon, at 12:23 p.m., the committee was adjourned.]

                                APPENDIX

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                             MARKUP SUMMARY
                             
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
